<html>
<title> - S. 361, A BILL TO ESTABLISH AGE LIMITATIONS FOR AIRMEN</title>
<body><pre>[Senate Hearing 107-1063]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1063



         S. 361, A BILL TO ESTABLISH AGE LIMITATIONS FOR AIRMEN

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 13, 2001

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



87-970              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

           COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                JOHN B. BREAUX, Louisiana
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
PETER G. FITZGERALD, Illinois        RON WYDEN, Oregon
JOHN ENSIGN, Nevada                  MAX CLELAND, Georgia
GEORGE ALLEN, Virginia               BARBARA BOXER, California
                                     JOHN EDWARDS, North Carolina
                                     JEAN CARNAHAN, Missouri

                  Mark Buse, Republican Staff Director
               Ann Choiniere, Republican General Counsel
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel


                            C O N T E N T S

                              ----------                              

                                                                   Page
Hearing held on March 13, 2001...................................     1
Statement of Senator Hutchison...................................     3
Statement of Senator McCain......................................     1
    Prepared statement...........................................     2
Statement of Senator Wyden.......................................     3

                               Witnesses

Emens, Capt. Paul, Chairman, Pilots Against Age Discrimination...    17
    Prepared statement...........................................    19
Lacey, L. Nicholas, Director, Flight Standards Service, Federal 
  Aviation 
  Administration.................................................     9
    Prepared statement...........................................    11
Murkowski, Hon. Frank H., U.S. Senator from Alaska...............     4
Wilkening, Robin, M.D., MPH, Johns Hopkins University School of 
  Hygiene and Public Health......................................    21
    Prepared statement...........................................    23
Woerth, Capt. Duane E., President, Air Line Pilots Association...    13
    Prepared statement...........................................    15

                                Appendix

Airline Professionals Association, Teamsters Local 1224, prepared 
  statement......................................................    31
Allied Pilots Association, prepared statement....................    30
FedEx Pilots Association, prepared statement.....................    35
National Air Transportation Association, prepared statement......    35
Responses to questions submitted by Senator Stevens to L. 
  Nicholas Lacey.................................................    29

 
         S. 361, A BILL TO ESTABLISH AGE LIMITATIONS FOR AIRMEN

                              ----------                              


                        TUESDAY, MARCH 13, 2001

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:10 p.m., in 
room 
SR-253, Russell Senate Office Building, Hon. John McCain, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. Good afternoon. During the last Congress, the 
Aviation Subcommittee held two hearings on the issue of pilot 
shortages and how they impact rural air service. The Committee 
learned that as air travel has expanded with the economy the 
major airlines have been hiring record numbers of pilots over 
the last few years. The high demand for pilots has put a 
squeeze on the regional and on-demand air carriers, because the 
larger airlines tend to hire pilots away from the smaller ones.
    Similarly, our Armed Forces have been drained of many top 
pilots who have been attracted to the private sector by the 
generous pay scale and benefits offered by major airlines.
    As I have often said before, a shortage of pilots in our 
military can affect our combat readiness. One of the ways to 
ease the pressure on smaller carriers and the military is to 
increase the size of the pool of eligible pilots. Of course, 
that pool is directly affected by the Federal Aviation 
Administration's Age 60 Rule, which prohibits anyone from being 
a commercial airline pilot once they reach the age of 60.
    Senator Murkowski's bill, S. 361, would increase the 
mandatory retirement age to 65 years. This legislation has the 
potential to ease the shortage of civilian pilots and reduce 
the pressure for military pilots to leave the service early.
    Any change to the Rule should not be undertaken lightly, 
because of the potential impact on safety. You do not need a 
medical degree to recognize the physical and mental capacities 
do not remain the same as you get older, and the chance of 
sudden incapacity naturally increases, but the retirement age 
of 60 was established somewhat arbitrarily more than 40 years 
ago. Life expectancies have increased, and medical science has 
advanced considerably since then. In addition, those who 
support changing the Age 60 Rule logically point out that older 
pilots usually have more experience, which can make all the 
difference in an emergency.
    As I noted at the time of our last hearing, there are 
clearly divided opinions among pilots, policymakers, and others 
within the aviation community. After years of looking at this 
issue, I believe it may be time to reconsider whether the Age 
60 Rule is an appropriate and fair standard. Safety is 
paramount, but there are certainly ways of ensuring that pilots 
who decide to fly beyond the age of 60 are fit and capable. It 
is noteworthy that 25 European nations have increased the 
mandatory retirement age for pilots to 65 years of age. I am 
sure these countries considered the safety implications of such 
a change and concluded that it would not harm air travelers. 
This may be a case where other nations are ahead of the United 
States in terms of balancing safety and fairness.
    Senator Murkowski and Senator Hutchison and Senator Wyden, 
all of us are visited quite frequently by groups of pilots and 
their position on this issue seem to somehow, strangely enough, 
be directly related to their age. Those that are approaching 
age 60 are vehement in their allegations and protestations that 
their health certainly justifies them being able to remain in 
command of an aircraft or as a copilot of an aircraft, and then 
the younger ones are equally as adamant that we cannot change 
the Age 60 Rule.
    As I grow older, I feel that perhaps there is some loss of 
capability, but the fact is that our men and women are 
arbitrarily deprived of employment with no other criteria 
except an arbitrary age limit. I am not sure that is good for 
America, and I am not sure that is good for the individuals as 
well.
    [The prepared statement of Senator McCain follows:]

                Prepared Statement of Hon. John McCain, 
                       U.S. Senator from Arizona

    During the last Congress, the Aviation Subcommittee held two 
hearings on the issue of pilot shortages and how they impact rural air 
service. The Committee learned that, as air travel has expanded along 
with the economy, the major airlines have been hiring record numbers of 
pilots over the last few years. The high demand for pilots has put a 
squeeze on the regional and on-demand air carriers because the larger 
airlines tend to hire pilots away from the smaller ones. Similarly, our 
armed forces have been drained of many top pilots who have been 
attracted to the private sector by the generous pay scales and benefits 
offered by major airlines. As I have said before, a shortage of pilots 
in our military can affect our combat readiness.
    One of the ways to ease the pressure on smaller carriers and the 
military is to increase the size of the pool of eligible pilots. Of 
course, that pool is directly affected by the Federal Aviation 
Administration's (FAA) Age 60 Rule, which prohibits anyone from being a 
commercial airline pilot once they reach the age of 60. Senator 
Murkowski's bill, S. 361, would increase the mandatory retirement age 
to 65 years. This legislation has the potential to ease the shortage of 
civilian pilots and reduce the pressure for military pilots to leave 
the service early.
    Any change to the Rule should not be undertaken lightly because of 
the potential impact on safety. You do not need a medical degree to 
recognize that physical and mental capacities do not remain the same as 
we get older, and the chance of sudden incapacity naturally increases. 
But the retirement age of 60 was established somewhat arbitrarily more 
than 40 years ago. Life expectancies have increased and medical science 
has advanced considerably since then. In addition, those who support 
changing the Age 60 Rule logically point out that older pilots usually 
have more experience, which can make all the difference in an 
emergency.
    As I noted at the time of our last hearing, there are clearly 
divided opinions among pilots, policymakers, and others within the 
aviation community. After years of looking at this issue, I believe 
that it may be time to reconsider whether the Age 60 Rule is an 
appropriate and fair standard. Safety is paramount, but there are 
almost certainly ways of ensuring that pilots who decide to fly beyond 
the age of 60 are fit and capable. It is noteworthy that 25 European 
nations have increased the mandatory retirement age for pilots to 65 
years of age. I am sure these countries considered the safety 
implications of such a change and concluded that it would not harm air 
travelers. This may be a case where other nations are ahead of the 
United States in terms of balancing safety and fairness.
    I thank our witnesses for their participation and I look forward to 
a vigorous debate.

    The Chairman. I want to thank Senator Hutchison, who has 
done a lot of work on this issue, in fact, several hearings, 
and brings a great deal of expertise to this issue for her 
Chairwomanship of the Aviation Subcommittee and her involvement 
in this issue, and I thank you, Senator Hutchison.
    Senator Hutchison, then Senator Wyden.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you. Mr. Chairman, I will not add 
to all the facts that you have put on the table, because I 
think those facts are what has created our interest and looking 
into this further. It is an issue that I have certainly dealt 
with, even during the time that I was Vice Chairman of the 
National Transportation Safety Board, and there are very 
differing viewpoints.
    I think we have to be very careful before we overturn a 
regulation with a law from the agency that is tasked by 
Congress to be the agency to promote and assure aviation 
safety. On the other hand, I do think we must pressure the FAA 
to revisit, based on today's medical science, the 60-year-old 
pilot rule. So, I thank the Chairman for calling the hearing, 
and Senator Murkowski for asking us to do so. I will certainly 
be listening to the viewpoints and making the determination of 
the best way to address the issue.
    Thank you, Mr. Chairman.
    The Chairman. Senator Wyden.

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you, Mr. Chairman. I will be brief. 
You and Senator Hutchison have said it very well. It seems to 
me we have got to figure out a way, and this has not really 
been changed since 1959, to recognize there have been dramatic 
advances in medical technology and life expectancy and come up 
with a standard based on one principle, and that is, can you 
fly these planes with the measure of safety that the American 
people have a right to expect?
    I mean, the Rule requiring airline pilots to retire at age 
60 has been on autopilot for literally 40 years, and I think we 
ought to stay with this until we come up with something that 
takes a step toward a meritocracy that is based on ability.
    As you noted in your statement, Europe has gone with one 
approach. We can direct the FAA to work with the various 
parties, the pilot's organizations, the medical experts in this 
area, but at the end of the day I think we need an approach 
that really focuses on the individual ability, and if the 
individual can fly these planes with the measure of safety that 
the American people have a right to expect, they ought to be 
able to do it, so I look forward to working with you and our 
colleagues, and hearing from Senator Murkowski.
    The Chairman. Senator Stevens.
    Senator Stevens. Mr. Chairman, thank you. I will be happy 
to listen to my colleague present his case here.
    The Chairman. Welcome, Senator Murkowski.

             STATEMENT OF HON. FRANK H. MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Senator McCain. Thank you, 
Senator Stevens for giving me a great opportunity to elaborate 
a little further there. Thank you for the opportunity to 
testify on this bill.
    I think your statement, Mr. Chairman, recognizing the 
reality that here we are today where we have men and women of 
health as a consequence of taking better care of themselves, 
better medical facilities, better examinations, that suddenly, 
when you become 60 you are no longer fit to fly is a little bit 
of an inconsistency in the manner in which we live.
    This first came to my attention when I was flying on the 
Aleutian Islands, and the captain asked me to come up to the 
cockpit, and we were conversing, and he said that he was going 
to be retiring pretty soon and said he really felt it was a 
shame. He had over 30,000 hours flying in a 727, and he began 
to relate what it was like 30 years ago flying in an 
unpressurized airplane, fighting weather, not having air 
traffic control assistance, ground assistance, weather 
forecasts, and so forth.
    He said: ``You know, we were really busy then. We had a lot 
going on. The pressures were much greater. The intensity of 
weather, landing conditions, icing, you name it.'' He said, 
``Flying now is much easier. We have many more aids. We have 
much more sophisticated, reliable jets than we had in 
reciprocating airplanes,'' and he said the aircraft have 
advanced in technology to make it safer for the public, faster, 
and more convenient. But he said, ``here we are living under a 
Rule that was established many, many years ago when conditions 
were different.''
    He said, ``Now people are living longer. I have to pass a 
flight physical. I am willing to take my chances. I just want 
the option, if I want to continue my career, to have the 
ability to have employment as I have had before, and make a 
continuing contribution. To suggest somehow it is all over 
immediately upon reaching age 60 is unrealistic.''
    Now, you brought up, Mr. Chairman, the shortage of pilots 
in this Nation, and we certainly have a problem in my home 
State of Alaska. We have the problem of reducing flights in 
some of the small communities, not just in Alaska, but 
throughout America and, as a consequence--I think the figures 
bear out, according to the FAA--the number of pilots flying the 
Nation's big passenger carriers and cargo jets grew from 97,000 
in 1988 to 134,000 in 1998. Yet at the same time, the smaller 
carriers, the air taxi, small community pilots fell from 
143,000 in 1988 to 125,000 in 1997.
    In my home State of Alaska, the number of pilots fell from 
10,100 in 1988 to 8,700 in 1997. We are probably the most 
dependent State in the Union on aircraft and, obviously, 
pilots.
    Now, another way that carriers are dealing with the 
shortage, and I think this is paramount in the consideration of 
the Commerce Committee, Mr. Chairman, is, they are lowering 
their entry requirements. It was reported in February 2000 that 
new hires at major airlines were being promoted to captain in 
as little as 3 years, compared with, well, sometimes 8 to 10 
years in the past.
    In Alaska--and we have the permission of Penn Air to use 
their figures, their 121 certificate--the average captain had 
11,500 hours in 1996. Last year, it was 7,900 hours, and this 
year it is going to be lower. They lowered their minimum 
requirements for first officer from 1,000 hours last year to 
700 hours this year. ERA Aviation, the first officers average 
908 hours. Some of the pilots are with them for less than 6 
months before they leave and fly for a regional carrier.
    Frontier--Alaska's average pilot time is down to around 
4,000 to 5,000 hours. 10 years ago it averaged 15,000 to 25,000 
hours. It has been reported that pilots with 1,800 hours or 
less are perhaps as much as 5 times more likely to have an 
accident or rule violation than more experienced pilots, so 
experience means a lot.
    Mr. Chairman, I would further ask, why does the FAA mandate 
that pilots retire at age 60? That is the issue. As you pointed 
out, 60 was selected in the pre-jet age, 1959 I think it was, 
because of what FAA says were, ``medical uncertainties 
concerning pilots' health after age 60.'' Why not give them a 
more stringent examination if that is what it is going to take? 
I am quite willing, or if you do not like 65, take it down to 
62, try a pilot program, but we need relief.
    It is kind of interesting, because at that time, while 
public comments were accepted, no public hearing to debate the 
issue was ever held back in 1959. In the 42 years since the 
Rule was promulgated, there has not been any evidence that the 
pilots over age 60 are not fully capable of handling their 
flight responsibilities, assuming they pass the physicals and 
the other examinations that are necessary for all pilots, 
whether they are 60 or younger.
    For example, the 1995 Commuter Rule made special provisions 
to allow pilots who were then flying over age 60 to continue to 
fly for 4 more years as the pilot in command. The exemption 
ended, however, in December 1999. Commuter airlines were also 
allowed to continue to hire pilots 60 and older for 15 months. 
There were over 100 pilots over 60 flying at that time, and a 
study of 31 determined that they flew without a single accident 
or rule violation or incident.
    In 1999, 69 current and former airline captains organized 
and underwent extensive medical testing by a panel of national 
and internationally recognized experts in the field of 
aerospace medicine, cardiology, internal medicine, geriatrics, 
and neuropsychological determinations. The panel determined 
that they were all, every one of them, qualified to perform 
airline pilot duties beyond age 60, yet the FAA denied their 
exemption requests.
    Mr. Chairman, is this really a case of age discrimination? 
I think it might be. Mr. Chairman, everywhere else in the 
developed world, pilots are flying until they reach 65 and 
beyond. Two years ago, the European Joint Aviation Authority 
raised the mandatory retirement age to 65, joining many Asian 
countries, who increased the age to 63 or 65. These pilots are 
flying exactly the same type of airplanes that the American 
pilots are flying.
    There is absolutely no evidence that these foreign pilots 
have a worse safety record than American pilots under the age 
of 60. At the same time, there is clear evidence that in the 
last 42 years the FAA has relaxed their medical requirements to 
allow pilots to fly with various medical problems, including 
hypertension, diabetes, alcoholism, spinal cord injury, 
defective vision. Height and weight restrictions have also been 
liberalized.
    In 1999, the FAA granted medical certificates to 6,072 
airline pilots under the age of 60 who had significant medical, 
pathological problems permitting them yet to operate in the air 
as air crewmen. How does the FAA derive its medical consensus? 
I think that is an interesting question for the Committee. How 
do they derive that it is medically--as a consensus that is--
safe for those pilots to fly and not those who have been flying 
for 30 or 40 years without such medical pathology who happen to 
just arrive at the age of 60?
    I think if the unions have a problem here with retirement, 
then it should be addressed in concert with the negotiations 
that occur between the unions and management, but I think this 
bill is in the public interest at this time. I think, Mr. 
Chairman, it is time to seriously look at raising the 
retirement age for Part 121 pilots to keep experience in the 
cockpit, and I think it is time we end this age discrimination 
once and for all.
    I thank you, Mr. Chairman, for the opportunity to present 
this before the Commerce Committee.
    The Chairman. Thank you very much, Senator Murkowski. We 
appreciate it.
    Senator Hutchison. [Presiding.] Senator Murkowski, my major 
question is, do you have any concerns about mandating the FAA 
to go to age 65 by law?
    Senator Murkowski. Well, I am not sure what it is going to 
take. Obviously, we have a bill here, and the bill would 
address the issue of extending to age 65, if they wanted to do 
a pilot program, to age 62 or 63. I think the point is we need 
relief. There is no medical evidence to suggest that somehow it 
is unsafe for a qualified pilot to no longer be qualified at 
age 60 when at 59 he or she was and passed the physicals and 
the flight requirements and so forth. This is pretty much a 
union problem.
    If you talk to the copilot and you talk to the pilot who is 
nearing retirement you get a different point of view. On the 
other hand, from the standpoint of the longevity of the 
copilot, who may want to, when he or she receives the 
experience, to move over to the captain's seat, would like to 
fly a little longer when they reach that age, but they are 
anxious to move up.
    It is kind of interesting, at one time the Airline Pilots 
Association supported extending beyond age 60. They have 
changed that position now, and they can best explain that logic 
to you, but I am not fixed on how it is going to happen.
    I think it is time it happened, because let's face it, if 
you can pass the physical, even a more stringent physical, if 
that is necessary as determined by the FAA, it would achieve 
our objective to have more experienced pilots continuing to 
serve at a time when the military is short of pilots, the 
airlines are short of pilots, and in my State of Alaska I can 
cite instances where, on a rough day, if you are flying from 
Juneau to Skagway, or the other way around, and it is bumpy, 
you might have the passenger holding the airline frequency so 
that the pilot can twist in on the various dials to get the 
approach into Juneau.
    I mean, these things happen, and I recognize it is 
different, because these are smaller airplanes that do not have 
copilots, but we need more experienced pilots, and if we have 
got them, why not use them, for heaven's sakes. The foreign 
airlines seem to get by very nicely, and we have got some kind 
of a mental mandate here that suddenly when you turn 60 you are 
all through.
    Senator Hutchison. Well, I think when we are talking about 
safety regulations we need to be careful before we usurp the 
agency that is supposed to be taking care of that 
responsibility. I think your points are very good, and I just 
want to make sure that we are doing this in a careful way, and 
that we make sure we do not usurp the FAA's regulation without 
doing it in a way that is absolutely responsible.
    Senator Murkowski. I would only respond to that, Senator 
Hutchison, by suggesting that maybe it is an obligation of the 
FAA to come up with some statistical evidence to suggest that 
if you are 60 years old you are not qualified. If you pass the 
physical, the flight physical, and the policies associated with 
what it takes to be a captain, then let them prove, if you 
will, that age determination is a factor in the safety of 
operating that aircraft in the public convenience. They have 
not done that. They have just arbitrarily come down in 1959 
with a policy that they have adhered to, and I think it is time 
we took a look at the policy.
    Senator Hutchison. Senator Wyden.
    Senator Wyden. I just want to be clear on one point, 
because I think you touched on it and made a very helpful 
presentation. Your bill, Senator, just raises the age from 60 
to 65 at this point?
    Senator Murkowski. That is correct.
    Senator Wyden. But, if I understood your testimony, you are 
willing to look at a variety of ways to address safety, and 
that is really what is on my mind today. I do believe it is 
time for the Age 60 Rule to change, and I think it ought to be 
possible to find a safe way to allow capable pilots to keep 
flying beyond their 60th birthday, and I think the challenge 
now is to get together with these various experts in the field, 
medical experts and people at the FAA, and stay with it until 
we get the job done, and I understood you to say that you are 
open to doing that, and even though the bill goes just from 60 
to 65 you will work with us so that we can address some of 
those issues, is that right?
    Senator Murkowski. That is correct, Senator Wyden.
    Senator Wyden. I thank you. I look forward to working with 
you, because I do think that this Rule--I call it an autopilot, 
but with all of the advances in our society it is a Rule that 
is outdated to some extent. This is a microcosm of a debate 
that for me goes back to my days when I had a lot more hair and 
I was director of the Gray Panthers, and we would debate, how 
do you move forward in a time when you have these dramatic 
changes in health care and aging.
    Now, granted, there are special circumstances here, because 
safety has to be paramount, and there is no United States 
Senator who would differ, but I have got to think, with a very 
helpful chair who is going to work with all of us, we can get 
this done, and I look forward to working with you.
    Senator Hutchison. Thank you, Senator Wyden.
    Senator Stevens.
    Senator Stevens. Well, thank you very much, Frank. I am 
delighted you have raised the issue, and I think it deserves to 
be raised, and I am sure you know the situation in our State. 
Most people do not.
    I was told at the end of last year that 50 percent of our 
pilots in Alaska are over 50 years of age and half of those are 
over 55, and when you look at our State, where you travel--75 
percent of our people who travel between points in Alaska go by 
commercial air.
    You cited the statistics, how the numbers of pilots are 
decreasing, but they are going to decrease at an overwhelming 
rate in the next 10 years, and I have noticed here the FAA, and 
I hope you will stay with us and listen to this testimony, the 
FAA says until the FAA can be reassured that increasing the age 
60 limit will not negatively impact the level of safety, we 
cannot support a change through legislative action.
    They still license me at age 77 to fly planes, but not 
commercially. They are doing it in other parts of the world, 
raising the age limit, and we are an aging population. I think 
to deny the people of our country the experience of those 
people who are between 60 and 65, who are very competent 
pilots, is just bad policy, and I hope the FAA can tell us what 
they need to assure them that this will not negatively impact 
the level of safety. The level of safety is determined by 
health and by taking the examinations that all pilots must 
take. I do not see that suddenly you become impaired safety-
wise when you become 1 day over 60 years old.
    I hope you will join us up here and we will have a 
continuation of this hearing. This hearing is absolutely 
important, and again I thank you very much for raising the 
issue.
    Senator Murkowski. I appreciate that. As you and I know, 
when we fly in Alaska, the local knowledge means an awful lot, 
and that local knowledge takes a while to get, particularly 
when you are flying under visual flight rules, and the very 
fact that the FAA seems to have laid out the dilemma as people 
coming to them with proof that it is in the public interest to 
have the pilots fly beyond age 60, it seems to me the FAA has 
an obligation to make that determination.
    They have the wherewithal, the capability, the background, 
the information sources. They do it in every matter and form of 
air safety. Why not conclusively do an evaluation to see if, 
indeed, suddenly at 60 or 61 or 62, if you meet all the other 
requirements, why you are not qualified to continue to fly.
    I do not think that the answers necessarily are going to 
come across the board to the FAA. I think the FAA should be 
directed to gather that information and present a case, indeed, 
for the reality that we have a shortage of pilots, and when we 
have experienced pilots that we are turning loose when we do 
not have to just does not make sense.
    Senator Hutchison. Thank you, Senator Murkowski.
    Senator Murkowski. Thank you very much.
    Senator Hutchison. I thank you for being willing to work 
toward the right approach, and I think we will be able to do 
something that will address some of the issues you have raised.
    Now I would like to call the following panel: Mr. Nicholas 
Lacey, Director of Flight Standards Service at the FAA; Captain 
Duane Woerth, President of the Air Line Pilots Association; 
Captain Paul Emmens, Chairman of the Pilots Against Age 
Discrimination; and Robin Wilkening, M.D., from Johns Hopkins 
University School of Hygiene and Public Health.
    If the four of you would take your places, we will ask you 
to proceed, and I would ask that your statements be no more 
than 3 minutes, if you could summarize, and we do have your 
written statements for the record as well, and I will start 
with you, Mr. Lacey.

  STATEMENT OF L. NICHOLAS LACEY, DIRECTOR, FLIGHT STANDARDS 
            SERVICE, FEDERAL AVIATION ADMINISTRATION

    Mr. Lacey. Thank you, Senator. Certainly it is a pleasure 
to appear today before the Committee. By way of background, I 
have been Director of FAA's Flight Standards Service for a 
little over 2 years. I spent 24 years as a military officer and 
pilot, and 4 years in commercial aviation in various executive 
positions.
    I also have along with me today Dr. John Jordan, the 
Federal Air Surgeon, and as you requested, I will summarize my 
testimony and try to bring it down to around 3 minutes.
    The Age 60 Rule provides that a pilot, as we have been 
discussing, may not engage in what is known as airline 
operations if the pilot has reached age 60. Admittedly, this 
Rule is controversial. However, what it does represent is the 
FAA's best determination of the time when the general decline 
in health-related functions and overall cognitive capabilities 
have reached a level where decrements in a pilot's performance 
may jeopardize safety.
    The Rule means that a pilot who reaches age 60 must leave 
airline operations, but it does not mean that he or she can no 
longer play an important role in aviation. Many pilots continue 
to work for airlines in the screening, recruitment, and 
training of pilots. They serve as flight engineers, or fly in 
non-airline operations, become flight instructors, or, 
fortunately for us, come to the Federal Aviation Administration 
as inspectors.
    Since its' adoption in 1959, the FAA has reviewed the Age 
60 Rule several times to determine whether new and sufficient 
evidence exists to warrant a reconsideration of the regulation. 
The most recent review was in 1993. During that review, we 
reviewed well over 4,000 comments, which largely made 
assertions and expressed opinions, but they did not provide the 
agency with additional facts or analysis that was sufficient to 
support changing the Rule.
    More recently, the Senate Appropriations Committee 
requested that the FAA study and provide data regarding 
relative accident rates based upon a pilot's age. This study 
basically found what we are calling a U-shaped relationship, 
and what that means is the rate of accidents is higher for a 
young person, then as a person ages and gains experience, the 
rate declines, levels off for a sustained period of time, and 
then shows an increase as the person reaches retirement age.
    There seems to be little dispute that, as people age, they 
experience more illnesses, disorders, and suffer more cognitive 
decline. Cardiovascular diseases rise with age steeply, 
beginning with ages between 55 and 65.
    Cardiovascular disease remains the most frequent cause of 
death in pilots and in the general population. With this 
increased incidence of cardiovascular disease in the older 
population, the risk for unexpected events that could be a 
threat to safety of flight is increased.
    Cardiac events during flight continue to occur in low, but 
fairly consistent numbers over the years, and have caused 
general aviation accidents. Other health conditions are known 
to increase incidents, or to become more complicated with 
aging. There has been an increased awareness of the more subtle 
adverse conditions affecting performance, such as those related 
to cognitive functioning.
    We know that at some age everyone reaches a level of 
infirmity or unreliability that is unacceptable in a pilot in 
commercial passenger air transportation. That age will vary 
from person to person, but cannot yet be predicted in a 
specific individual.
    There are some that argue that the Age 60 Rule is arbitrary 
and without scientific basis, but the FAA feels that until we 
can be assured that increasing the age 60 limit will not 
negatively impact the level of safety, we cannot support a 
change through legislative action.
    Another reason cited for raising the retirement age to 65 
is that some segments of the industry may be experiencing pilot 
shortage. Based on our discussions with the industry experts, 
we understand that, while major airlines are not having 
difficulty meeting their pilot-hiring goals, there are signs 
that regional airlines and those feeding regional airlines are 
starting to see high turnover rates of pilot applicants and a 
declining degree of prior experience. This is not surprising, 
given the fact that major airlines can offer significantly 
better pay and benefits.
    My full statement discusses this issue of pilot shortage 
more fully, and the Committee will hear from other witnesses 
this afternoon about how the industry will deal with this 
issue. I wish to emphasize that, while many of these are 
legitimate concerns, we need to be careful to maintain the 
highest safety standards possible. The FAA works hard to manage 
the growth-oriented aviation system, and the constraints on the 
system that growth imposes, in the most efficient way possible.
    We construct our regulations very carefully, taking into 
account as many factors as we can, but ultimately always making 
the decision that will best enhance aviation safety.
    While economic factors are certainly a part of that 
calculation, I am sure that the Committee and our colleagues in 
industry would agree that safety must be a top priority.
    This concludes my remarks.
    [The prepared statement of Mr. Lacey follows:]

  Prepared Statement of L. Nicholas Lacey, Director, Flight Standards 
                Service, Federal Aviation Administration

    Mr. Chairman and Members of the Committee: I would like to thank 
you for the opportunity to appear before you today to discuss the 
Federal Aviation Administration's (FAA) Age 60 Rule. I am accompanied 
today by my colleague, Dr. Jon Jordan, Federal Air Surgeon. The Age 60 
Rule provides that a pilot may not engage in what are known as Part 121 
operations if the pilot has reached his 60th birthday. Part 121 covers 
scheduled passenger operations using multiengine jet aircraft, 
scheduled passenger operations with multiengine propeller airplanes 
having a passenger seat configuration of 10 or more seats, and common 
carriage operations of all-cargo airplanes having a payload capacity of 
7500 pounds or more.
    The Age 60 Rule is controversial. However, it represents the FAA's 
best determination of the time when a general decline in health-related 
functions and overall cognitive capabilities have reached a level where 
decrements in a pilot's performance may jeopardize safety. Our Rule 
means that a pilot who reaches age 60 must leave Part 121 operations, 
but it does not mean that he or she can no longer play an important 
role in aviation. Many pilots continue to work for Part 121 airlines in 
the screening, recruitment and training of pilot applicants, serve as 
flight engineers, or fly in non-Part 121 operations, or become flight 
instructors, or, fortunately for us, work as safety inspectors for the 
FAA.
    Since its adoption in 1959, the FAA has reviewed the Age 60 Rule 
several times to determine whether new and sufficient evidence exists 
to warrant a reconsideration of the regulation. The last completed, 
comprehensive review of the Rule was in 1993. That year the FAA 
received the report of an independent research company, Hilton Systems, 
Incorporated. The Hilton Study correlated available accident data with 
the amount of flying by pilots as a function of age. We released the 
extensive study, invited public comment on the Age 60 Rule, and held 2 
days of hearings. We reviewed over 4,000 comments, which made 
assertions and expressed opinions but did not provide the FAA with 
additional facts or analyses sufficient to support changing the Rule.
    More recently, the Senate Appropriations Committee requested the 
FAA to study and provide data regarding relative accident rates based 
on pilot age. The FAA's Civil Aeromedical Institute (CAMI) conducted a 
four-part study. Two parts of the study--an annotated bibliography of 
the scientific literature (1990-1999), and a re-analysis of the Chicago 
Tribune study data (1999) relating pilot age and accident rates--were 
sent to Congress last July. The two remaining parts of the study were 
sent to Congress on March 8th. They include an analysis of the 
relationship between pilot age, experience, and accidents/incidents for 
air transport pilots (ATP) with Class I medical certificates and who 
are involved in Part 121 and 135 operations, and a similar analysis 
involving ATP and commercial pilots with Class I or Class II medical 
certificates. Overall, for accidents involving Part 121 or 135 
operations, these analyses support the hypothesis that a ``U-shaped'' 
relationship exists between the age of professional pilots holding 
Class 1 medical and ATP certificates and their accident rate--meaning 
the rate of accidents is higher for a young person, then as the person 
ages (and gains experience) the rate declines, levels off for a 
sustained period, and then shows an increase as the person reaches 
retirement age.
    I must emphasize that before making any change to a safety rule, 
the FAA must be satisfied that the regulation will maintain or raise 
the current level of safety. What is clear to us from reviewing public 
comments and relevant literature concerning the Age 60 Rule is that 
there is no single ``right answer.'' What is also clear is that the 
question for the FAA is one of public safety and determining acceptable 
risk. At this time, the FAA cannot be assured that changing the Age 60 
Rule will maintain or raise the level of safety.
    There is little dispute that as people age, they experience more 
illnesses and disorders, and suffer more cognitive decline. 
Cardiovascular disease rises with age, steeply, beginning between ages 
55 and 65, and, though mortality has dropped since 1960, cardiovascular 
disease remains the most frequent cause of death in pilots and the 
general population. With this increased incidence of cardiovascular 
disease in the older population, the risk for unexpected events that 
could be a threat to safety of flight is increased. Cardiac events 
(e.g., heart attacks, sudden death) during flight have continued to 
occur in low but fairly consistent numbers over the years and have 
caused general aviation accidents.
    Other health conditions are known to increase in incidence or to 
become more complicated with aging. Many present greater difficulties 
of detection and risk assessment than does cardiovascular disease. 
Among these are cerebrovascular disease, malignancies; endocrine 
dysfunction; neurological disorders; psychiatric diagnoses including 
depression; and decline in sensory and motor capabilities. There has 
been an increasing awareness of the more subtle adverse conditions 
affecting performance, such as those related to cognitive functioning.
    Clearly there is a progressive anatomic, physiological, and 
cognitive decline associated with aging, albeit variable in severity 
and onset among individuals. We know that, at some age, everyone 
reaches a level of infirmity or unreliability that is unacceptable in a 
pilot in commercial passenger air transportation. That age will vary 
from person to person but cannot yet be predicted in a specific 
individual.
    There are some who argue that the Age 60 Rule is arbitrary and 
without scientific basis. Proponents of raising the retirement age cite 
action in 1999 by the Joint Aviation Authority (JAA) in Europe which 
relaxed the standard, allowing a pilot in command to work until age 65, 
so long as the co-pilot is under age 60. We are not aware of any 
comprehensive or definitive study that was the basis for the JAA 
action. We also note that the International Civil Aviation Organization 
(ICAO) retains as a standard, an Age 60 limit for persons acting as 
pilot-in-command of an aircraft engaged in scheduled international air 
services or non-scheduled air transport operations for remuneration or 
hire and recommends that the co-pilot also be under age 60. While 
admittedly science does not absolutely dictate the age of 60 for 
commercial passenger pilot retirement, that age is within the age range 
during which sharp increases in disease mortality and morbidity occur. 
Until the FAA can be assured that increasing the Age 60 limit will not 
negatively impact the level of safety, we cannot support a change 
through legislative action.
    One of the reasons cited for raising the retirement age to 65 is 
that some segments of the industry may be experiencing a pilot 
shortage. The FAA is certainly aware of the concerns of those who 
believe that a pilot shortage is imminent, one that could have an 
adverse impact on small and regional air carriers through high turnover 
rates. Based on our discussions with industry experts, we understand 
that, while the major airlines are not having difficulty meeting their 
pilot hiring goals, there are signs that the regional airlines and 
those feeding the regionals are starting to see higher turnover and 
pilot applicants with declining prior experience. This is not 
surprising given the fact that the major air carriers can offer 
significantly better pay and benefits. While this may be a legitimate 
concern, we need to be careful to maintain the highest safety standards 
possible.
    At the end of 2000, the number of active (meaning those with valid 
medical certificates) airline transport pilots totaled 141,596. We 
forecast the number of airline transport pilots to grow at an annual 
rate of 3.1 percent to a total of 204,400 in 2012. It is difficult to 
determine whether this potential rate of growth will ultimately lead to 
a significant shortage of pilots. At present, many individuals with 
airline transport pilot certificates are not employed by regularly 
scheduled airlines. Some work as general aviation flight instructors 
while others are not employed as pilots. An airline transport pilot 
certificate is required for a pilot-in-command for Part 121 operations, 
but a pilot may act as a co-pilot or first officer with only a 
commercial pilot certificate in many Part 121 operations. Airlines 
could look to persons with commercial pilot certificates (numbering 
121,858 at the end of 2000 and projected to increase to 148,800 in 
2012) as potential hires. Air carrier equipage, labor agreements, 
routes and future changes in these factors further complicate the 
analysis.
    In addition, military downsizing will ultimately reduce the 
importance of ex-military pilots as a source for civilian airlines. 
From World War II through the mid-1990s, approximately 80 percent of 
major airline new hires were military trained. Today, civilian pilots 
make up approximately 60 percent of all pilots hired. Non-military 
sources for pilots are persons with commercial pilot certificates, 
general aviation pilots, and the more than 200 colleges and 
universities that offer aviation programs.
    The regional air carrier industry is both the entry level for 
airline transport rated pilots, and an increasingly important source of 
experienced new pilots for the major commercial jet operators. The most 
important thing for the regional airline industry and small carriers, 
such as commuters and on demand operators, is that there is a 
continuous pool of new pilots to draw upon for training and 
development. Regional airlines are increasingly developing ``bridge 
programs'' with aviation universities that screen and refer graduates 
who meet the participating airlines' minimum standards for employment. 
Also, many of the regional airlines are dropping their ``pay for 
training'' programs, which had required their pilot applicants to pay 
for their training, and reducing their company's minimum qualifications 
for new hires.
    The general aviation industry has taken steps to increase interest 
in aviation. To help sustain the pool of pilots, the ``BE A PILOT'' 
program was initiated in 1996 with a goal of 100,000 new student starts 
by last year. This program is jointly sponsored and supported by more 
than 100 general aviation organizations. The program started issuing 
``introductory flight certificates'' to interested respondents in May 
1997. The certificates can be redeemed for a first flight lesson for a 
cost of $35. To date, over 110,000 certificates have been requested. 
The program has over 1,600 participating flight schools.
    Through our regional offices, the FAA in partnership with State 
transportation officials, offer information and outreach to local 
communities about careers in aviation. We maintain an Aviation 
Education Website at www.faa.gov/edu where the public may find a host 
of career and curriculum materials, industry and educational contact 
listings, and community outreach initiatives.
    Mr. Chairman, the FAA will develop regulations in the context of 
what is best for public safety. The FAA's primary mission is ensuring 
the safety of the National Airspace System (NAS). We work hard to 
manage a growth oriented aviation system--and the constraints on the 
system that growth imposes--in the most efficient and safe way 
possible. Our ongoing efforts to modernize the air traffic control 
system will enhance both the safety and efficiency of the NAS. The FAA 
also establishes, through our regulations, basic safety standards for 
aircraft and crewmembers that will ensure the safety of our traveling 
public. We construct our regulations very carefully, taking into 
account as many factors as we can, but ultimately, always making the 
decision that will best enhance aviation safety. While economic factors 
are certainly a part of that calculation, I am sure the Committee and 
our colleagues in industry would agree that safety must be the top 
priority.
    That concludes my prepared remarks. I would be happy to answer any 
questions the Committee may have.

    Senator Hutchison. Thank you, Mr. Lacey.
    Captain Woerth.

       STATEMENT OF CAPTAIN DUANE E. WOERTH, PRESIDENT, 
                  AIR LINE PILOTS ASSOCIATION

    Captain Woerth. Good afternoon, Madam Chairwoman, Members 
of the Committee. I am Duane Woerth, President of the Air Line 
Pilots Association, representing the professional interests of 
59,000 airline pilots who fly for 49 airlines in the United 
States and Canada.
    I am accompanied by Dr. Charles Billings, who has had a 
long distinguished career in the field of aviation medicine 
both in and out of Government, and is well-qualified to respond 
to your questions on the medical and performance aspects of the 
issue before the Committee today. I thank you for the 
opportunity to appear before the Committee to represent ALPA's 
views on the Age 60 Rule and on S. 361 to relax the Rule and 
establish a new mandatory retirement age of 65.
    ALPA's position on the Rule and this legislation is the 
same as it was when I testified here 9 months ago on an 
identical bill. Nothing has changed during this time to warrant 
a change in the Rule, or ALPA's position. ALPA supports the Age 
60 Rule, and opposes S. 361.
    The Age 60 Rule is based on two fundamental principles that 
are indisputable by most medical authorities: first, the risk 
of incapacitation and the declines in cognitive functions 
increase with age, especially beginning in the mid-50s. Second, 
there is no adequate protocol of medical or neuropsychological 
tests to sufficiently and reliably determine which individual 
pilots will remain fit to fly as they approach and exceed age 
60.
    These two principles have been put to the test numerous 
times in a variety of forums through efforts by individuals or 
groups to repeal the Rule or to seek exemptions from it. The 
FAA has addressed these challenges on at least four separate 
occasions in the past 15 years, and in each case has proved 
conclusively that it should be upheld in the interest of air 
safety.
    In 1986 and 1988, two separate groups of pilots, Aman, et 
al., and Baker, et al., filed petitions for exemption from the 
Rule, and in both cases the petitions were denied after a 
thorough review and consideration by the FAA and, upon appeal 
to the Court of Appeals for the Seventh Circuit, the denials 
were upheld.
    In 1995, following one of the most comprehensive reviews to 
date, the FAA in an order known as the 1995 Disposition, denied 
a petition for rulemaking from a group of pilots organized to 
seek repeal of the Rule, denied numerous pending petitions for 
exemptions, and ordered the Rule to be applied to commuter 
airline pilots. This later action had been recommended some 
years earlier by the National Transportation Safety Board 
following several commuter airline accidents in which the age 
of the pilots was considered a factor.
    The Disposition also stated that all future petitions for 
exemption would be denied unless they proposed a new, effective 
testing protocol for assessing individual pilot abilities and 
the risk of subtle and sudden incapacitation. The Disposition 
was upheld on appeal to the Court of Appeals for the District 
of Columbia Circuit, and to the United States Supreme Court, 
which later declined to hear the case.
    Most recently the FAA, last December, denied the petitions 
for exemption of a group of 69 pilots, some of whom were still 
in their mid-50s. The fundamental claim of the petitioners in 
this case, Adams, et al., is that each of them had undergone a 
new testing protocol that had been developed and administered 
by a panel of experts in a variety of medical fields and had 
been declared fit to fly. In a voluminous submission, the 
petitioners made numerous assertions and claims, including that 
these exemptions should be granted because of a significant 
shortage of experienced pilots, resulting in a reduction in air 
safety.
    In its order denying the petitions, the FAA presents a 
comprehensive rebuttal to the claims of the expert panel as to 
the testing protocol, and conclusively demonstrates that the 
alleged new protocol was virtually identical to those that had 
been earlier rejected as insufficient in the Aman and Baker 
petitions.
    The order also effectively disputes each of the assertions 
concerning the Rule itself. It is now subject to the review of 
the Court of Appeals for the Seventh Circuit, the same court 
that reviewed and upheld the FAA's action in the previous two 
cases. I submit to each of you who is interested in the 
substantive arguments on both sides of this issue, that you 
take the time to read FAA's order in this case. I believe you 
will agree with me that the FAA has made its case very 
thoroughly and persuasively that the retention of the Age 60 
Rule is in the public interest, and in the interest of air 
safety.
    I focus my remarks today on a comprehensive review of this 
regulation by the FAA over a period of 15 years for two 
reasons. First, I think it is important for the Committee to 
know that an enormous amount of study and research has been 
devoted to the issues in the debate over this one air safety 
regulation, and the FAA has continuously reviewed the 
literature and results of the research in its consideration of 
the challenges to the Rule by those who would seek to repeal it 
or be exempted from it. The agency has also sponsored a number 
of studies in an effort to understand the relationship of the 
Rule to the maintenence of the highest level of safety. Second, 
it is important for the Committee to know that the FAA has 
discharged its regulatory responsibility concerning this 
particular air safely rule in a professional, judicious, and 
thorough manner, and the Federal courts have affirmed the 
decisions it has rendered. Congress has charged the FAA with 
the mandate to prescribe and maintain regulations and minimum 
standards necessary for air safely, and in this case the agency 
has carried out its charge in the face of continuous and 
concerted challenges.
    Based on this record, I urge this Committee to respect the 
authority of the FAA, as well as the jurisdiction of the Court 
of Appeals that will soon be reviewing the most recent case, 
and to refrain from moving legislation to overturn the Rule. 
This concludes my statement, and I am pleased to answer your 
questions, Madam Chairman.
    [The prepared statement of Captain Woerth follows:]

        Prepared Statement of Captain Duane Woerth, President, 
                      Air Line Pilots Association

    Good afternoon Mr. Chairman and Members of the Committee. I am 
Duane Woerth, President of the Air Line Pilots Association, 
International (ALPA). ALPA represents the professional interests of 
59,000 pilots who fly for 49 airlines in the United States and Canada. 
I appreciate the invitation to appear before the Committee today to 
present ALPA's views on S. 361, a bill to relax the FAA regulation 
known as the Age 60 Rule, and impose a new mandatory retirement age of 
65. My testimony today on this legislation is essentially the same as 
that which I submitted to the Committee last July on an identical bill. 
Nothing has changed in the past 9 months to warrant a change in the 
Rule or ALPA's position. ALPA supports the Age 60 Rule, and opposes S. 
361.
    The Age 60 Rule is based on two fundamental principles of medical 
science that are indisputable. First, the risks of incapacitation and 
unacceptable decrements in performance increase with age. Second, 
medical science has not developed a regimen of reliable tests that can 
be administered effectively to identify those aging pilots who are, or 
will become, incapacitated, or whose performance will decline to an 
unacceptable level. The issues surrounding the regulation have been 
studied as thoroughly as any aeromedical matter affecting pilots, and 
after two decades of comprehensive studies and exhaustive review, these 
two principles are still valid as the underlying basis for the Rule. As 
a matter of fact, the FAA, as recently as December 13, 2000, after a 
comprehensive review, reaffirmed that medical science has not yet 
advanced to the point to adequately screen out those over-60 pilots 
whose on-the-job performance will in fact become inadequate and 
potentially unsafe due to the normal processes of aging.
    In late 1979, the House of Representatives rejected a proposal to 
relax the Rule, and directed the National Institutes of Health to 
conduct a study to determine if there was sufficient medical evidence 
to support it. In August 1981, the National Institute of Aging Review 
Panel on the Experienced Pilots Study that was responsible for 
reviewing the study and submitting a report to Congress concluded:
    ``The Panel attaches no special medical significance to age 60 as a 
mandatory age for retirement of airline pilots. It finds, however, that 
age-related changes in health and performance influence adversely the 
ability of increasing numbers of individuals to perform as pilots with 
the highest level of safety and, consequently, endanger the safety of 
the aviation system as a whole. Moreover, the Panel could not identify 
the existence of a medical or performance appraisal system that can 
single out those pilots who would pose the greatest hazard because of 
early or impending deterioration in health or performance.'' Following 
completion of the NIA review, the Rule was contested in Federal Court 
and reconsidered by the FAA. In 1989, in response to a directive by the 
U.S. Court of Appeals for the Seventh Circuit, the FAA reviewed the 
evidence and reaffirmed its support of the Rule. In the decision, the 
FAA's Director of Flight Standards stated:
    ``Based upon all of the studies discussed, we conclude that an 
older pilot's edge in experience does not offset the undetected 
physical infirmities associated with the aging process. Notwithstanding 
that most pilots who are approaching or have passed age 60 report that 
their health is excellent and they do not experience any physical or 
cognitive limitations which would prevent them from continuing their 
flying career, the research of aging indicates that there is often a 
sharp decline in physical and cognitive performance after age 60. There 
is substantial scientific evidence which indicates that the greater 
experience of the pilots who have reached or passed age 60 does not 
outweigh the increased risk of incapacitation or skill deterioration 
which accompanies seniority.'' Since 1994, the FAA itself has sponsored 
at least five studies on issues related to the Rule. The most 
comprehensive consideration of the Rule by the FAA occurred between 
1993 and 1995. In late 1990, the FAA had initiated a statistical study 
on the relationship between pilot age and accident rates. Following the 
release of the so-called Hilton Study in March, 1993, the FAA convened 
a public meeting in September to solicit comments on the study and the 
Age 60 Rule in general. Two years later, in December 1995, the FAA 
concluded an exhaustive rulemaking proceeding, commonly known as the 
``One Level of Safety'' review, in which the safety regulations 
governing the commuter airlines (Part 135) were harmonized with the 
major carrier regulations (Part 121). One component of that review and 
subsequent order was a reaffirmation of the Age 60 Rule and the 
application of it to the commuter airlines. Recognizing that this 
change might pose a hardship for some commuter pilots and operators, 
the FAA granted a 4-year phase-in of the new rule. At the time of the 
order, the FAA estimated that there were approximately 8,000 pilots in 
the commuter category, and of those, approximately 200 were over 60 
years of age. The grace period expired on December 20, 1999, at which 
time those pilots who were over 60 years of age were required to 
retire. During this same timeframe (1993-1995), and again just last 
year, the FAA considered and denied a petition for rulemaking to repeal 
the Rule that was filed by a group of pilots, both active and retired, 
who have been fighting it for years.
    As mentioned above, just last December, after an exhaustive review 
of the scientific literature on this issue, the FAA determined that it 
was again compelled to deny pilot requests for exemption from the Rule 
on the grounds that there was still no reliable scientific test to 
identify those over-60 pilots who posed potential safety risks. The FAA 
reiterated the fact that that there was little dispute over the 
principle that, as people age, they experience more illnesses and 
disorders, and suffer more cognitive decline, the onset of which is 
usually insidious and sometimes overlooked by co-workers, family and 
friends. Often the individuals themselves are not aware of age-related 
decline in memory, language, spatial orientation and judgment from 
previously attained intellectual levels. As the FAA noted, medical 
science is currently unable to identify these defects in memory, 
cognitive capacity and adaptive behavior, and many dementing diseases 
can be confirmed or denied with certainty only after death. Given the 
difficulty in identifying and measuring these declines, FAA concluded 
that it is an unacceptable risk to the public safety to allow pilots to 
fly until failure; therefore, some age must be selected at which 
mandatory retirement is indicated. Others would choose a different age; 
however, age 60 is within the age range during which the FAA and the 
medical community have found that sharp increases in disease and 
morbidity occur, and it has served well as a regulatory limit since 
1959.
    Let me conclude my statement by saying that ALPA regards the Age 60 
Rule as an extremely important safety regulation that should not be 
overturned without the full support and confidence of the FAA--the 
agency that the Congress has charged with promulgating and enforcing 
such regulations. Unfortunately, many challenges to the Rule over the 
years have not been based on safety grounds, and I applaud the FAA for 
resisting those petitioners and their arguments until the case can be 
made that safety will not be diminished. As I have stated in the past, 
our members are often reminded that the FAA is not mandated to ensure 
that airline pilots enjoy a long and productive career. Rather, its 
mandate is to insure the highest degree of safety in air 
transportation. The justification for the Rule is not now and never has 
been to enhance the careers of pilots who want to move up the seniority 
list faster and it should not be changed for the sake of those who want 
to continue flying longer. To repeat, the Age 60 Rule is a safety 
regulation and should not be changed or repealed unless and until the 
FAA, not ALPA or any other pilot organization, is convinced, based on 
sufficient and conclusive evidence, that such action would not have a 
negative effect on safety. In ALPA's view, that case has never been 
made.
    Thank you for the opportunity to present ALPA's view on this 
critical air safety issue.

    Senator Hutchison. Thank you, Captain Woerth.
    Captain Emens.

          STATEMENT OF CAPTAIN PAUL EMENS, CHAIRMAN, 
               PILOTS AGAINST AGE DISCRIMINATION

    Captain Emens. Thank you. Good afternoon, Senators. My name 
is Paul Emens. I am Chairman of the group known as Pilots 
Against Age Discrimination, PAAD. PAAD represents all pilots 
who believe the Age 60 Rule is discrimination, and that 
changing it will not only reduce the Nation's critical shortage 
of pilots, but will dramatically increase the level of 
experience brought to commercial aviation.
    Supporting PAAD is the American Association of Retired 
Persons, the Full Employment Opportunity Commission, the 
Organization of Black Airline Pilots, the Professional Pilots 
Federation, and a group known as ALPA Pilots Against Age 60, 
APAAS.
    As was said earlier, this Rule was brought about with no 
hearings, no testimony, no medical input. In one stroke of a 
pen the administrator created the Rule, and shortly thereafter 
was put on the board of directors of the airline who requested 
the Rule change. Can any of you even imagine that happening 
today? 40 years later, we still have this Rule.
    It should be termed age discrimination, and it is. The AARP 
agrees. In its policy handbook it says the Federal Aviation 
Administration's Age 60 Rule should be eliminated and replaced 
with regulations or law that determine each individual's 
competency and fitness on the basis of factors related to 
safety, as is the case with younger pilots.
    The EEOC also believes the issue to be discrimination, and 
has worked hard to eradicate it. Age 60 has been stamped out 
nationwide in all areas of commercial aviation with the 
exception of the airline industry. The man responsible for this 
is here today, Bob Unitas of the EEOC, which has submitted a 
brief in support of the Rule change.
    Consider this double standard, if you will. Mr. Lacey here 
of the FAA could well have been flown here today by FAA pilots 
who themselves are allowed to fly over the age of 60 in the 
same air space that I occupy every day. It is ridiculous.
    We will hear today, or we have heard, that changing the 
Rule will adversely impact safety. In doing so, the FAA ignores 
its own study, the Hilton study of 1993. That study, bought and 
paid for by the FAA, said unequivocally accidents decreased 
with age, leveling off for older pilots. Our analyses provided 
no support for the hypothesis that the pilots of scheduled air 
carriers had increased accident rates as they neared the age of 
60. Most of the analysis indicated a slight downward trend in 
accident rates with age. Without explanation, its results were 
ignored.
    Mr. Lacey told us that the Rule should remain as is.
    However, Dr. Frank Austin, a former Federal Air Surgeon, 
said there is no basis for the Age 60 Rule. I believe this, and 
Admiral Engen, former FAA Administrator, believes this is an 
economic issue.
    Just a few weeks ago, Dr. Austin appeared on the ABC 
Evening News saying this very same thing yet again. Thus far, 
he has been ignored.
    When the Australian Supreme Court threw out Australia's Age 
60 Rule the Chief Justice said this: ``Given the time and 
effort expended in America examining the Age 60 Rule, it is 
remarkable to say so, but it seems to me that none of the cited 
studies supports any conclusion about the relationship between 
that Rule and aircraft safety.''
    Dr. Billings, who testified to maintain the Australian Age 
60 Rule, was described by the Australian Supreme Court as 
having been a long advocate of the Age 60 Rule to the point 
where it must be difficult for him to give open-minded 
consideration to an alternative approach. I am not persuaded 
that he has been able to do this. I think that remains true 
today.
    I have been told on Capitol Hill that Congress is reluctant 
to intrude into the domain of the FAA, particularly where 
safety is concerned. Yes, the U.S. air transportation system is 
the safest in the world, but the FAA has made many errors over 
the years.
    There were hundreds of millions of dollars wasted in a 
futile effort to upgrade the air traffic control system.
    There was the failure of airline oversight that led to the 
ValuJet disaster, and ongoing is a decade long fight to tighten 
pilot flight and duty time regulations. This failure to address 
fatigue resulted in yet another fatigue-related crash, the 
American Airlines jet at Little Rock.
    Just as pilot fatigue is an issue, so, too, is age 60.
    We cannot afford to wait another 10 years. Are we going to 
wait until accidents begin to occur as a result of pilot 
inexperience? Ms. Garvey is a fine Administrator, and she is 
working hard to move that giant bureaucracy, the FAA, but I 
will say, Senator, sometimes a bureaucracy needs a good boot in 
the butt to get it moving.
    Congress has passed laws that impact other transportation 
sectors, notably duty time in trucking and maritime. It can 
pass a law to influence the Age 60 Rule. This Rule is an 
economic issue, and ALPA, with its PAC money, is its foremost 
defender. My father was an ALPA Pan Am pilot who once worked to 
overturn the Age 60 Rule. ALPA was, in my father's time, an 
opponent of this Rule. For 20 years, no ALPA talk was ever made 
of over age 60 pilots being a safety problem. Younger pilots 
took over ALPA. Things have changed.
    Now, I would say the Age 60 Rule is unsafe, and I will wrap 
it up with this. There is a pilot shortage in this country. 
More to the point, there is a shortage of experienced pilots. 
This extends even into our military, as Senator Murkowski has 
mentioned. It is a readiness issue.
    ALPA knows there is a shortage. In 1998, they said large 
numbers of captains will be retiring from most U.S. carriers. 
The effects on the air transportation system could be 
disastrous. The real losers will be the air taxi and regional 
operators that must fly their aircraft with the pilots the 
majors cannot attract. Fast forward to the issue, and ALPA last 
month in an article on the pilot shortage, ALPA briefly wrote 
this: ``ALPA's renewed vitality rests on the bargaining 
advantage of this pilot shortage, not even Frank Lorenzo would 
try to fly through a strike today.'' This is economic, 
Senators, not safety.
    Senator Hutchison. Captain Emens, are you concluding? 
Actually, Captain Emens, we have had a vote called, and I want 
to get Dr. Wilkening, so if you could just finish your last 
line, then I want to take Dr. Wilkening, then our questioning 
is going to be much shorter, I am sure, than people had hoped.
    Captain Emens. Turnover rates at many regional airlines are 
as high as 100 percent. We are starting to see this. We are 
seeing this. The FAA's own data is showing that older pilots 
are safer, and we need to concentrate on the safety aspect of 
it.
    This is not an attack against labor, and some folks will 
try and portray it as such. At least 15,000 to 20,000 who wish 
to see this rule change are union labor. Some 10,000 to 15,000 
of those are ALPA pilots who wish to see this rule change. We 
can change this Rule by just raising the experience level, by 
raising the retirement age. We can change the tax code so that 
pilots are not penalized when they retire at age 60, as is the 
case without special tax language that is in there now, and if 
we guard against the FAA changing medical standards, which many 
pilots fear, particularly for those under age 60, we can lift 
that concern as well.
    [The prepared statement of Captain Emens follows:]

          Prepared Statement of Captain Paul Emens, Chairman, 
                   Pilots Against Age Discrimination

    Good afternoon, Senators. My name is Paul Emens and I am Chairman 
of the group known as Pilots Against Age Discrimination (PAAD).
    PAAD represents all pilots who believe that the Age 60 Rule is age 
discrimination and that changing it will not only reduce the Nation's 
critical shortage of pilots but will dramatically increase the level of 
experience brought to commercial aviation. PAAD is supported in its 
efforts by the American Association of Retired Persons (AARP), the 
Equal Employment Opportunity Commission (EEOC), the Organization of 
Black Airline Pilots (OBAP), ALPA Pilots Against Age Sixty (APAAS) and 
the Professional Pilots Federation (PPF).
    The Age 60 Rule was born as part of a sweetheart deal between the 
chairman of a major airline and the first FAA Administrator. Having 
lost an age dispute in court, with his lawyers advising that there were 
no grounds for an age change, this airline chairman asked the FAA to 
get this done administratively. One stroke of a pen. No hearings. No 
testimony. No medical input. Not long afterwards, that same 
administrator was placed on the Board of Directors for that airline.
    Thus were thousands of pilots, for the very first time, grounded at 
the chronological age of 60--regardless of health or competency.
    Can you imagine such a thing being done today?
    It would be termed age discrimination, and rightly so. The AARP 
agrees: ``The Federal Aviation Administration's ``Age 60 Rule'' should 
be eliminated and replaced with regulations or laws that determine each 
individual's competency and fitness on the basis of factors related to 
safety, as is the case for younger airline pilots.'' The EEOC also 
believes the issue to be discrimination and has worked to eradicate it. 
Age 60 has been stamped out nationwide--with the exception of the 
airline industry.
    Consider this double standard: The Federal Air Surgeon, Dr. Jon 
Jordan, may well have been flown here by FAA pilots--who ARE allowed to 
fly over the age of 60.
    It's ridiculous. It's age discrimination.
    We heard today how the FAA thinks changing the Rule will adversely 
impact safety. In doing so it will ignore its own study, the Hilton 
Study of 1993. That study clearly said, unequivocally, ``accidents 
decreased with age, leveling off for older pilots. Our analyses 
provided no support for the hypotheses that the pilots of scheduled air 
carriers had increased accident rates as they neared the age of 60. 
Most of the analyses indicated a slight downward trend [in accident 
rates] with age.'' Without explanation, its results were ignored.
    Mr. Jordan will tell us the Rule is fine the way it is. This is the 
same Air Surgeon who ignored the Hilton Study. One of his predecessors 
has a different view, however. Dr. Frank Austin, former Federal Air 
Surgeon said, ``There is no basis for the Age 60 Rule. I believe this 
and Admiral Engen [the FAA Administrator] believes this. It's an 
economic issue.'' Just a few weeks ago Dr. Austin appeared on ABC 
Evening News saying this very thing--yet again. Thus far he's been 
ignored.
    I've been told on Capitol Hill that Congress is reluctant to 
intrude into the domain of the FAA, particularly where safety is 
concerned. Yes, the U.S. air transportation system is the safest in the 
world. But the FAA has made many errors over the years. There were the 
hundreds of millions of dollars wasted on a futile effort to upgrade 
the Air Traffic Control System. There was the failure of airline 
oversight that led to the ValueJet disaster. Ongoing is a decade-long 
fight with to tighten pilot flight and duty time regulations. This 
failure to address fatigue resulted in yet another fatigue-related 
crash, the American Airlines jet at Little Rock. Just as pilot fatigue 
is an issue, so too is Age 60. Are we going to wait until accidents 
begin to occur as the result of pilot inexperience? Ms. Garvey is a 
fine Administrator and she is working hard to move that giant 
bureaucracy, the FAA. But Senators, sometimes a bureaucracy needs a 
good boot in the butt to get it moving.
    This Rule is an economic issue. ALPA with its PAC money is the 
foremost defender of the Age 60 Rule.
    My father was an ALPA Pan Am pilot who once worked to overturn the 
Age 60 Rule. ALPA was, in my father's time, an opponent of this Rule. 
For 20 years was no ALPA talk of over-age 60 pilots being a safety 
problem. Then younger pilots took over ALPA leadership making ``job 
progression'' a ``right'' in place of what most people believe is one's 
``right to work''. Younger pilots want to get into the Captain's seat, 
the sooner the better. In the early 1980s ALPA secured an amendment to 
the tax code that allowed them to take full advantage of their 
pensions, in spite of being forcibly retired at the age of 60.
    Younger pilots' careers advanced. Older pilots' pensions secured. 
That is the foundation upon which opposition to changing the Age 60 
Rule rests. Pilots also fear the FAA will take the opportunity of an 
age change and mandate new medical standards for those under the age of 
60. Would the FAA be justified? Absolutely not. Yet it is something the 
FAA may very well attempt.
    I've established the Rule is fundamentally wrong. But there is 
more.
    The Age 60 Rule is unsafe as well.
    There is a pilot shortage in this country. More to the point there 
is a serious shortage of experienced pilots. Not only are there fewer 
numbers of pilots to fill the needs of air carriers--and provide safe 
and reliable air service to undeserved States and cities--there is a 
critical shortfall in experienced pilots nationwide. This shortage 
extends even into our military and is a source of concern at the 
Pentagon. Taken together, our military aviation organizations are some 
3,000 or more pilots short of their manning needs. Naval aviation 
retention rates are at an alarmingly low of 15 percent annually. This 
is a readiness issue. This is one reason why Senator Inhofe, himself a 
commercial pilot, has co-sponsored this bill.
    ALPA knows there's a shortage. In May 1998 ALPA published an 
article that said in part: ``Large numbers of Captains will be retiring 
from most U.S. carriers. The effects on the air transportation system 
could be disastrous as a sudden surge of poor-caliber pilots is dragged 
from the bottom of the system, perhaps all the way to the majors. The 
real losers will be the air-taxi and regional operators that must fly 
their aircraft with the pilots the majors cannot attract.'' ALPA's 
president, Captain Duane Woerth confirmed this critical problem when he 
stated during Senate testimony last July that ``with the growth in air 
travel has come growth in airline employment, including pilots leaving 
jobs in the commuter airline industry.'' He called this a ``natural 
phenomenon''. What he didn't mention is that thousands of those jobs 
are the result of age-based forced retirement. At TWA, an airline that 
has shown no growth, fully half of their seniority list is due to 
retire within 5 years due to age-based retirements. With American 
Airlines acquisition of TWA, that problem will soon shift to American 
Airlines, whose pilot group has its own wave of age-based retirements.
    Fast forward to ALPA's magazine issue last month. In an article on 
the pilot shortage, ALPA gleefully wrote this: ``ALPA's renewed 
vitality rests on the bargaining advantage of this pilot shortage. 
Recent negotiations have inverted the troubled past. Not even Frank 
Lorenzo would try to fly through a strike today!'' Economics, Senators. 
Not safety.
    The fact is, Senators, the real losers are the passengers of YOUR 
State whose lives are placed at risk by pilot inexperience. Currently 
it is not uncommon for pilots to be hired straight out of aviation 
colleges and into the First Officer's seat of a regional airline, even 
a regional jet. Within a year, these novices can be promoted to 
Captain.
    Fact: Inexperienced pilots make three times as many critical errors 
as more experienced pilots. A pilot with but 1 year of line-flying 
experience coupled with a co-pilot straight out of flight school is a 
recipe for disaster in commercial aviation. Today our most experienced 
pilots--those over 60--have been removed from the ranks in order to 
make room for pilots with minimal flight time and little other than 
school experience. Is this the pilot you want for your family's next 
flight?
    Senator McCain had the foresight to recognize this problem as far 
back as 1996. In Senate testimony he said, ``One obvious way to 
increase the experience levels of cockpit crews would be to increase 
the discriminatory maximum age for pilots, which is limited by the Age 
60 Rule.'' Turnover rates at many regional airlines range as high as 80 
percent or more, as pilots move on to the major carriers, filling slots 
opened by expansion and an increasing volume of age-driven retirements. 
Service to your constituents suffers. The safety net is straining.
    In 1995 the FAA elected to apply the Age 60 Rule to regional 
carrier pilots, who for more than four decades had been transporting 
the citizens of your States without a single safety problem related to 
the pilot being 60 years of age or older. After a 5-year phase-out of 
older regional pilots, the last retired in December 1999. The oldest 
was 71.
    Fact: The FAA's own data shows that not only are older airline 
pilots as safe as their younger comrades, the safety record of these 
older pilots surpasses that of nearly every other air transport pilot 
group. The FAA had their study group, the regional pilots. They simply 
ignored it, as they ignored the Hilton Study.
    Here's another absurdity: Pilots of foreign carriers in Japan, 
Australia, Canada and most of those of Europe such as Germany--all 
first-tier nations--have raised their retirement age, most to 65. In 
fact, over age 60 pilots of these countries may fly into American 
airspace, carrying U.S. citizens, while our own country's pilots may 
not do so. Ask the FAA to explain that anomaly!
    This is not an attack against labor. I am a member of a union. At 
least 15,000-20,000 of those wishing to see a rule change are union 
labor. Many more are not. Some 10,000-15,000 ALPA pilots are among 
those who wish to see the Rule changed. My speech hits hard at two 
entrenched entities, the FAA and ALPA, that seem to be out-of-touch 
with today's world. Their focus is on the past. Our focus is on the 
present and the future.
    We can make this a win-win for us all:
    1. Raise the retirement age, increasing experience and thus raising 
the level of safety. Pilot competence and health or not fixed to an 
arbitrary chronological age.
    2. Change the tax code so a pilot is not forced to fly over age 60 
to collect his full pension. Who, after all, wants a pilot in the 
cockpit who doesn't want to be there?
    3. Guard against changes in FAA medical standards for pilots under 
age 60, men and women who are already the most thoroughly tested and 
monitored of all professionals.
    Let me end with the motto of the Air Force's 89th Airlift Wing, 
which flies the President as well as other top government officials. 
``Experto Crede''--``Trust One Who Has Experience.''
    Do your constituents deserve any less?

    Senator Hutchison. I am very sorry, but we have about 7 
minutes left, and I would like to hear what Dr. Wilkening has 
to say so we have the full record, and then see if there are 
questions.

        STATEMENT OF ROBIN WILKENING, M.D., MPH, JOHNS 
           HOPKINS UNIVERSITY SCHOOL OF HYGIENE AND 
                         PUBLIC HEALTH

    Dr. Wilkening. Thank you, ma'am. I am a physician 
specialist in occupational medicine, an aviation safety 
researcher, and a frequent flyer, and I am here today to tell 
you that the Age 60 Rule is age discrimination in commercial 
aviation.
    You will hear over and over that the Age 60 Rule is a 
necessary safety standard. Do not be deceived. We already heard 
today, or what we did not hear from Mr. Lacey was, about the U-
shaped curve, that even though it looks like there are higher 
accidents at the extremes of age, there is no statistically 
significant difference in accident age among pilots age 23 to 
63, again, no statistically significant difference. The older 
pilots are as safe as the younger. Do not be deceived.
    The truth is, if the issue was really safety, we would not 
even be having this discussion, because there would not even be 
an Age 60 Rule. Time and again, over age 60 pilots have been 
shown to be as safe as their younger colleagues. For decades 
this has been true.
    Historically, there have been three hypotheses of interest 
about the health and fitness of the aging pilots: 1. That 
pilots over the age of 60 might experience incapacitation; 2. 
That pilots over the age of 60 might experience undetected 
cognitive decline; 3. That medical testing may not identify 
pilots over the age of 60 who may be at risk for adverse health 
events.
    Sudden incapacitation due to cardiovascular disease was the 
stated reason, though not the real reason that the actual age 
of 60 was chosen, and 40 years ago, when ALPA still championed 
the rights of all pilots to remain employed, former ALPA 
president Clarence Sayen challenged the FAA Administrator to 
justify his hasty decision to enact the Rule.
    Elwood Quesada responded with highly questionable 
documents, culled from medical archives in the 1950s, many of 
which were decades old at that time and, in addition to being 
astonishingly outdated, these articles described the 
characteristics of general populations and not of airline 
pilots, and they are not the fundamental, indisputable 
principles of medical science that current ALPA president, 
Duane Woerth, would have you believe.
    The original justification for the Rule implied, 
incorrectly, that the health characteristics of the general 
population also applied to airline pilots. Wrong then and wrong 
now. Airline pilots are healthier and live longer than their 
counterparts in the general population the world over.
    Moreover, concern over pilot incapacitation causing a crash 
is simply unjustified. International Air Transport Association 
data and simulator data show that the risk of incapacitation 
due to cardiovascular disease is only one event in more than 20 
million flight hours. The calculated probability of a crash 
resulting from incapacitation is one event in 8.3 billion 
flight hours, or one event every 400 years.
    Furthermore, it is well-established that in-flight 
incapacitation is a far less threat to safety than mishaps due 
to inexperienced pilot error. The truth is, 40 years of medical 
scrutiny show no justification for keeping the Age 60 Rule 
based on the fear that an airline pilot will become 
incapacitated regardless of age.
    As far as the normal, healthy aging process, it is 
accompanied by decreases in cognitive function over time in all 
population groups, though rarely manifested prior to 70.
    Airline pilots consistently demonstrate superior task 
performance when matched against non-pilots by age. High levels 
of education and training, characteristic of this population, 
significantly enhance their mental abilities.
    Airline pilots are selected for good health when they start 
their careers. They are examined comprehensively every 6 months 
thereafter. The illnesses that might lead to cognitive decline 
are detected, corrected, or the pilot is discharged. They are 
monitored and health conscious more than any other 
professionals in our country. Moreover, all airline pilots 
undergo mandatory simulator testing every 6 months to a year, 
that tests every conceivable routine and emergency situation.
    They are under the constant scrutiny of other pilots, 
flight attendants, mechanics, load masters, gate personnel, and 
air traffic controllers during daily flight operations.
    They are subject to the two communication rules at all 
times. There is simply no chance that a cognitive decline, even 
if it should occur, would go undetected, so the truth is, 40 
years of medical scrutiny show no justification for the Age 60 
Rule based on the fear that an airline pilots will have 
undetected cognitive impairment, regardless of age.
    ALPA wants you to believe that there are no tests--that 
medical science has not developed a regimen of tests that can 
be administered effectively. I am forced to reveal that Captain 
Woerth, who made that statement, is either sadly uninformed, or 
seeks to misinform.
    The truth is, sophisticated and readily available testing 
programs have been available and used by the FAA for more than 
20 years to determine airline pilot fitness for duty and, in 
addition to the diagnostic value they have predictive value as 
well and, moreover, age does not influence the manner in which 
disease presents itself diagnostically. To claim that these 
tests, both medical and psychological, fail the day a pilot 
turns 60 is simply wrong.
    Airline pilots under age 60 who have been removed from duty 
for heart attack, coronary artery bypass, alcoholism, even 
after relapse, drug abuse, brain injury, psychiatric illness, 
and a long list of other health problems, are routinely 
returned to flying after passing one or more of these 
diagnostic tests, and have been for decades. They are allowed 
to prove themselves fit, and without exception or 
justification, the FAA denies access to these same tests by 
pilots the day they turn 60. This is an unethical medical 
standard, and it is indefensible, and the truth is, it is not a 
safety standard, it is age discrimination.
    [The prepared statement of Dr. Wilkening follows:]

Prepared Statment of Robin Wilkening, MD, MPH, Johns Hopkins University 
                  School of Hygiene and Public Health

    Mr. Chairman and distinguished Members of the Committee: Thank you 
for allowing me the opportunity to speak. My name is Dr. Robin 
Wilkening. I am a physician specialist in Occupational Medicine, an 
aviation safety researcher, and a frequent flyer. And I am here today 
to tell you that the Age 60 Rule is age discrimination.
    For the past 40 years the Age 60 Rule has purposely and 
systematically excluded highly trained pilots from employment based on 
age alone, thus exemplifying the very definition of age discrimination. 
That our most experienced pilots are forced prematurely from positions 
of command has the frightening potential to render the skies more 
hazardous for all travelers and thus represents a serious public health 
concern.
    Legitimate historical documents reveal all too clearly that the Age 
60 Rule was not based on safety principles. The Age 60 Rule's 
conception followed the unethical professional coupling of the CEO of 
American Airlines and the first Administrator of the FAA, resulting in 
an economic windfall for the airline and a post-retirement job for the 
administrator.<SUP>16,17,18,19</SUP> Even then the FAA knew ``it was 
not yet possible to establish a retirement age for civil airline pilots 
based on scientifically determined facts.'' <SUP>1</SUP> Though some 
would claim that the Rule is ``justified on its merits as a sound and 
effective safety regulation,'' <SUP>30</SUP> it is abundantly clear 
that the Rule cannot be justified--because it simply has no merit.
    Historically there have been three major hypotheses of interest in 
the medical arena regarding the employment of older pilots.
    1. Pilots aged 60 and older might have a greater likelihood of 
experiencing incapacitation, either sudden or subtle, which would place 
the aircraft and passengers at risk.
    2. Pilots aged 60 and older might experience decrements in 
cognitive performance resulting in dangerous judgment errors that could 
compromise safety.
    3. Medical and psychological testing procedures may not identify 
pilots aged 60 and older who might be at risk for adverse health 
events.

                             INCAPACITATION

    Sudden incapacitation secondary to underlying cardiac or 
cerebrovascular disease was the stated reason the actual age of 60 was 
chosen. Far from being based on indisputable, fundamental principles of 
medical science, as its proponents claim, the Rule's initial medical 
underpinnings were 41 questionable articles culled from the medical and 
psychological archives of the 1950s, the majority of these having been 
published decades earlier. In addition to being astonishingly outdated, 
these articles described the physical and mental health characteristics 
of general populations and not of airline pilots.<SUP>20</SUP> The 
original justification for the Rule implied, incorrectly, that the 
health characteristics of the general population of white males in the 
United States applied also to the population of air carrier pilots. It 
remains incorrect to assume the same today. Airline pilots are still 
healthier and live longer than their counterparts in the general 
population the world over.<SUP>3,4,7,12,13,14,22
    </SUP>Moreover, simulator data have estimated the risk of 
incapacitation due to cardiovascular disease as only one event in more 
than 20 million flight hours, with a calculated probability of an 
accident occurring as a result of incapacitation once in every 
8,307,082,800 flight hours (or, stated another way, one episode every 
400 years) assuming that all incapacitations occur in a critical point 
in the flight.<SUP>8</SUP> Furthermore, it is well established that 
sudden in-flight incapacitation is a far less threat to aviation safety 
than are mishaps due to inexperienced pilot error.<SUP>11</SUP> Forty 
years of medical scrutiny reveals nothing that justifies maintaining 
the Age 60 Rule based on the fear that the pilot of a multi-crew 
aircraft will compromise passenger safety due to his or her sudden or 
subtle incapacitation, regardless of age.

                         COGNITIVE PERFORMANCE

    The normal, healthy aging process is accompanied by decreases in 
cognitive function over time in all population groups, though airline 
pilots consistently demonstrate superior task performance when compared 
to age-matched non-pilots.<SUP>26</SUP> High levels of education and 
training (characteristics of commercial aviators) significantly enhance 
the retention of mental abilities.<SUP>24</SUP> Airline pilots, 
selected for good health at the start of their careers and subjected to 
comprehensive medical examinations every 6 months thereafter, are among 
the most monitored and health-conscious of all professionals. Mandatory 
simulator time that tests every conceivable routine and emergent 
situation, constant scrutiny during routine flight operations, and 
unannounced flight checks further assure that cognitive decrements will 
not go unnoticed.
    Illnesses leading to cognitive decline are detected and corrected, 
or the pilot is removed from the work force.<SUP>9</SUP> Once again, 
nothing justifies maintaining the Age 60 Rule based on the fear that 
the pilot of a multi-crew aircraft will compromise passenger safety due 
to problems with cognitive performance, regardless of age.

       IDENTIFICATION OF PILOTS AT RISK FOR ADVERSE HEALTH EVENTS

    Those who assert that ``medical science has not developed a regimen 
of reliable tests that can be administered effectively to identify 
those aging pilots who are, or will become, incapacitated, or whose 
performance will decline to an unacceptable level'' <SUP>30</SUP> are 
sadly uninformed--or seek deliberately to misinform. Sophisticated and 
readily available testing programs have been used for more than 20 
years to determine the medical and psychological fitness of airline 
pilots. In addition to the diagnostic value of these ever-improving 
tests, they are widely accepted to have predictive value.<SUP>2,6,21</SUP> 
The FAA's claim that these tests--both medical and psychological--fail 
right at age 60 is simply not valid. The medical literature shows that 
age does not influence the manner in which disease manifests itself 
diagnostically.<SUP>28</SUP> Airline pilots under age 60 who have been 
removed from duty for reasons of myocardial infarction, coronary artery 
bypass surgery, cardiac pacemaker implantation, alcoholism (including 
some after a third relapse), drug abuse, brain injury, psychiatric 
disease, and other life-threatening maladies, are routinely returned to 
flying duties upon passing one or more diagnostic tests, and have been 
for decades.<SUP>10,22,29</SUP> Without exception or justification, the 
FAA denies access to these same tests by demonstrably healthy pilots 
the day they turn 60. This unethical double standard in medical 
evaluations based on age alone is not defensible! Continuing to deny 
over-60 pilots the opportunity to demonstrate their health and fitness 
amounts to blatant age discrimination.
  flight performance data: the greatest significance to public safety
    Most importantly, decades of actual flight performance data, the 
measure of greatest significance to public safety, show that for nearly 
every age group, older pilots surpass younger in terms of safety. The 
FAA's 1993 Hilton Study brought a new level of statistical 
sophistication to the discussion of over-60 pilot performance. This 
exhaustive and carefully conducted study demonstrated conclusively that 
there was simply no diminution in flight performance with age, and 
showed, further, that over-60 pilots were actually safer than pilots in 
most younger age groups.<SUP>15</SUP> These findings were echoed in yet 
additional data provided by the FAA and analyzed by statisticians for 
the Chicago Tribune in 1999, revealing that air transport pilots over 
age 60 were significantly safer than most of their younger 
counterparts.<SUP>24</SUP> Shocked into rebuttal mode by the Tribune's 
research, the FAA re-analyzed the data and deliberately excluded these 
over-60 pilots from the analysis. The FAA works hard spending passenger 
tax dollars to prevent discovery and dissemination of safety 
information contrary to their antiquated and entrenched position! Among 
pilots aged 20-59, the FAA re-analysis demonstrated no difference in 
risk by age, validating the 1993 Hilton Study.<SUP>5</SUP> How many 
times does this information need to be repeated for it to be believed? 
Internationally, the safety and reliability of over-60 pilots is 
accepted without question by nearly every other industrialized nation. 
The United States stands with a small minority of nations in 
maintaining this arbitrary standard.
    Though the Age 60 Rule has enjoyed a long, and protected reign, its 
claim as a safety standard remains unsubstantiated by medical science. 
Attempts at medical justification of the Rule have been disingenuous 
ploys to divert attention from the Rule's obvious exclusionary economic 
premise. Opportunities for thorough study of actively employed over-60 
airline pilots have been neglected in favor of maintaining an 
antiquated and potentially dangerous regulation.
    The increasingly traveled skies of our Nation demand the most 
experienced and highly motivated pilots in the cockpit--now forced out 
of work by the Age 60 Rule--to mentor their younger and less 
experienced, but upwardly ambitious partners. The FAA clings 
irrationally to the notion that age of 60 alone represents an 
appropriate single standard for the evaluation of older pilot fitness. 
If any one of you were to undergo cardiac surgery or bone marrow 
transplantation tomorrow you would naturally want your life be in the 
hands of the most knowledgeable and skilled doctor, regardless of his 
or her age. When I fly--when my children fly--I want that very same 
level of professional ability and experience in the Captain. The 
archaic and discriminatory Age 60 Rule prohibits our most experienced 
pilots from performing the work they know and do better than anyone 
else in the business, thereby compromising your safety, my safety, and 
the safety of all passengers. Thank you.
    Notes:
    1. ALPA v. Elwood R. Quesada, 182 F. Supp. 595 (S.L)., N.Y., 1960).
    2. Baker KH. Neuropsychological Testing of Pilots, Flight Safety 
Foundation l991; 36th CASS (White Plains):1-14.
    3. Band PR, Le ND, Deschamps M, Coldman AJ, Gallagher RP, Moody J. 
Cohort Study of Air Canada Pilots: Mortality, Cancer Incidence, and 
Leukemia Risk. Am J Epidemiol 1996; 143(2):137-143.
    4. Besco RO, Sangal SA, Nesthus TE. A Longevity and Survival 
Analysis for a Cohort of Retired Airline Pilots. DOT/FAA/AM-95-5. 
Office of Aviation Medicine, Washington DC 20591.
    5. Broach D. Pilot Age and Accident Rates: A Re-analysis of the 
1999 Chicago Tribune Report and Discussion of Technical Considerations 
for Future Analyses. FAA Civil Aeromedical Institute AAM-00-A-HRR-520.
    6. Bruce RA, Fisher LD. Exercise-Enhanced Risk Factors for Coronary 
Heart Disease vs. Age as Criteria for Mandatory Retirement of Health 
Pilots. Aviat Space Environ Med 1987; 58:792-798.
    7. Castelo-Branco A, Cabral-Sa A, Coelho Borges J. Comparative 
Study of Physical and Mental Incapacities Among Portuguese Airline 
Pilots Under and Over Age 60. Aviat Space Environ Med 1985; 56:754-7.
    8. Chapman PJC. The Consequences of In-Flight Incapacitation in 
Civil Aviation. Aviat Space Environ Med 1984; 55 :497-500.
    9. Dark SJ. Characteristics of Medically Disqualified Airmen 
Applicants in Calendar Years 1973 and 1974. FAA Office of Aviation 
Medicine AM-76-10. (See also FAA Office of Aviation Medicine AM-78-25, 
AM-80-l9, AM-83-5, AM-85-9, AM-86-7, AM-90-5).
    10. FAA Aeromedical Certification System, First Class Airmen (1999) 
Under 60 Years Old, pp.1-74.
    11. Froom P, Benbassat J, Gross M, Ribak J, Lewis B. Air Accidents, 
Pilot Experience, and Disease-Related Inflight Sudden Incapacitation. 
Aviat Space Environ Med 1988; 59:278-8l.
    12. House Report 2080. Better Management Needed of Medical Research 
on Aging. 89th Congress, 26th Session. September 26, 1966, p. 19.
    13. Irvine D, Davies M. The Mortality of British Airways Pilots, 
1966-1989: A Proportional Mortality Study. Aviat Space Environ Med 
1992; 63:276-9.
    14. Kaji M, Tango T, Asukata I, Tajima N, Yamamoto K, Yamamoto Y, 
Hokari M. Mortality Experience of Cockpit Crewmembers from Japan 
Airlines. Aviat Space Environ Med 1993; 64:748-50.
    15. Kay EJ, Hillman DJ, Hyland DT, Voros RS. Age 60 Study: 
Consolidated Data base Experiments Final Report 1994. DOT/FAA/AM-94/22. 
Office of Aviation Medicine, Washington DC 20591.
    16. Letter from C. R. Smith to General Elwood Quesada, February 5, 
1959. From the personal files of former Federal Air Surgeon Homer L. 
Reighard, MD. These files became public information during a civil suit 
under the Freedom of Information Act, Civil Action Number 85-1943 
(D.C., D.C., 1985).
    17. Letter from C. R. Smith to Clarence N. Sayen, April 3, 1959. 
From Reighard files.
    18. Letter from Clarence N. Sayen to C. R. Smith, April 14, 1959. 
From Reighard files.
    19. Letter from C. R. Smith to General Elwood Quesada, 30 April 
1959. From Reighard files.
    20. Letter from Elwood R. Quesada to Clarence N. Sayen, August 5, 
1959. From Reighard files.
    21. Mapou RL, Kay GG, Rundell JR, Temoshok L. Measuring Performance 
Decrements in Aviation Personnel Infected with the Human 
Immunodeficiency Virus. Aviat Space Environ Med 1993; 64:158-64.
    22. Mohler SR. Aircrew Physical Status and Career Longevity. Hum 
Factors Bull 1984; 31(1): 1-8.
    23. Salisbury DA, Band PR, Threlfall WJ, Gallagher RP. Mortality 
Among British Columbia Pilots. Aviat Space Environ Med 1991; 62:3351-2.
    24. Schmeltzer J. FAA data find older hands are steadier. Chicago 
Tribune Sunday July 11, 1999.
    25. Shock NW, Greulich RC, Adrus R, Arenberg D, Costa, Jr. PT, 
Lakatta EG, Tobin JD. Normal Human Aging: The Baltimore Longitudinal 
Study of Aging. NIH Publication Number 84-2450 November 1984.
    26. Stuck AE, van Gorp WG, Josephson KR, Morgenstern H, Beck JC. 
Multidimensional Risk Assessment versus Age as Criterion for Retirement 
of Airline Pilots. J Am Geriatr Soc 1992; 40:526-532.
    27. Tsang PS, Shaner TL. Age, Attention, Expertise, and Time-
Sharing Performance. Psychol Aging 1998; 13(2):323-47.
    28. Veroff AE. The Neuropsychology of Aging. Psychol Res 1980; 
41:259-68.
    29. Weiner E. Doctor's Orders. Flying 1986; July:82-84.
    30. Woerth D. Testimony Before the Subcommittee on Aviation on 
Pilot Shortages and the Effects on Rural Air Service, July 25, 2000.

    Senator Hutchison. Senator Stevens.
    Senator Stevens. Mr. Lacey, I would like you to give to the 
Committee a breakdown of pilots that are licensed by the FAA by 
age who are flying commercially. I would like to see how bad 
this problem is. We know how bad it is in Alaska.
    Second, in your statement you indicate that, until you can 
be assured that it will not negatively impact the level of 
safety. I do not understand that statement, in view of the fact 
that you take the position that the burden of proof is on 
anyone who protests the Rule. What are your standards?
    Please give us a statement for the record. What will it 
take to assure the FAA that increasing the Age 60 Rule limit 
will not negatively impact the level of safety? What will it 
take, OK?
    Mr. Lacey. Senator, I would be glad to do that.
    [The information provided is in the appendix.]
    Senator Stevens. We have got to go for two votes. There is 
no reason to keep you here.
    Senator Hutchison. That is why I wanted to make sure that 
we have everything on the record, because the two votes will 
take 30 minutes, and I appreciate the time and effort you have 
made to come and I appreciate that we got both sides, I think, 
fully brought into the record.
    I would just like to ask Mr. Lacey as well to do one other 
thing, and that is, if you assume that Congress was going to 
raise the age, I would like to know how you would approach it 
responsibly? What kind of added testing or experience level 
would you require, and do you think that we should go in 
smaller steps if we decided that the evidence was more the 
other way?
    Should you go to 62 or 63 before you go to 65, and allow 
the FAA to then have the ability to go to 65 after a period of 
testing? Is that a reasonable approach? If you could answer 
that for the record, I would appreciate it.
    Thank you very much.
    [Whereupon, at 3 p.m., the hearing adjourned.]
     

                            A P P E N D I X

      Responses to Questions Submitted by Senator Ted Stevens to 
                           L. Nicholas Lacey

    Question 1. Give the Committee a breakdown of pilots that are 
licensed by the FAA by age who are flying; commercially?
    Answer: The attached Table shows the numbers of pilots, by age 
group, who hold Airline Transport Pilot (ATP) certificates, and 
Commercial (COM) certificates. The groups are subdivided into ATP and 
COM pilots who MAY hold 1st and 2nd class medical certificates. A pilot 
who serves as pilot-in-command (i.e., Captain) for flight operations 
conducted under Title 14, Code of Federal Regulations (14 CFR), Part 
121 is required by the regulation to have an ATP certificate and valid 
1st class medical. A pilot who serves in the capacity of second-in-
command (i.e., First Officer) for operations conducted under 14 CFR 
Part 121 must have at least a commercial certificate and valid 2nd 
class medical certificate.
    The attached data indicate that most pilots holding ATP and COM 
certificates with 1st and 2nd class medical certificates, respectively, 
are employed in airline operations. The age group from 35 to 40 years 
of age is typically the time period when many first officers upgrade to 
Captain. This trend is reflected in the significant increase in the 
number of ATPs in the 35 the 45 age groups.
    The sharp decline in ATPs with 1st class medicals in the age group 
from 55 to 60 also indicates that the majority of pilots holding these 
qualifications fly for airlines operating under 14 CFR Part 121.
    The FAA does not keep records on the numbers of pilots employed by 
individual airlines. However, industry associations such as the Air 
Transport Association (ATA) may keep these records.
    Question 2. Given the FAA position that the Age 60 Rule should not 
be changed until we can be assured that it will not negatively impact 
levels of safety, and the burden of proof is on anyone who protects the 
Rule. What are the standards?
    Answer: In 1959, when the Age 60 standard was established for 
transport category aircraft of a specified passenger configuration, FAA 
regulators were acting on the best medical information available. Since 
then, in the last 2 decades, the FAA has had the question of the 
appropriateness of the Age 60 Rule studied several times. Each study 
has not provided the FAA with strong enough conclusions to warrant 
rescinding the Rule or extending the age limit. In addition, the Age 60 
Rule has survived multiple legal challenges since its implementation.
    Medical examinations required by the regulations for pilots serving 
in 14 CFR Part 121 operations assess the suitability of the airman to 
perform flight duties for the duration of the medical certificate 
issued. The medical standards are detailed in 14 CFR Part 67. However, 
the required medical examination cannot always predict whether a pilot 
will experience an incapacitating event nor is it an absolute 
determinant of a pilot's continued state of health. It appears that air 
carrier safety has been well served by the Age 60 Rule. Since the FAA 
has no evidence that changing the Rule would not adversely effect 
safety the burden of proof must be on the opponents of the current Rule 
and not the reverse.
    Question 3. What will it take to assure the FAA that increasing the 
Age 60 Rule limit will not negatively impact the level of safety?
    Answer: The FAA has stated publicly, and continues to take the 
position that, if sufficient data could be provided that would show 
that rescinding the Rule or extending the age limit beyond age 60 would 
not have a negative impact (e.g. an increase in the accident or 
incident rate) on the current level of flight safety, the FAA would 
consider modification of the regulation.
    Question 4. If you assume that Congress was going to raise the age, 
I would like to know how you would approach it responsibly, what kind 
of added testing or experience level would you require, and do you 
think that we should go in smaller steps if we decided that the 
evidence was more the other way? Should you go to age 62 or 63 before 
you go to 65, and allow the FAA to then have the ability to go to 65 
after a period of testing? Is that a reasonable approach?
    Answer: The Age 60 Rule is the FAA's best determination of the time 
when the general decline in health-related functions and overall 
cognitive capabilities have reached a level where decrements in a 
pilot's performance may jeopardize safety. In the absence of favorable 
scientific, medical and accident data, we believe that extending the 
age 60 limit beyond age 60--either incrementally or in one step--
cannot, with confidence, be justified.
    If Congress decides that the evidence shows that the Age 60 Rule 
can be amended to provide for an increase in that age, the FAA would of 
course amend the current regulation to comply with a congressionally 
mandated age limit. However, the FAA has no additional testing, 
experience requirements or medical protocols that would predict or 
measure a pilot's performance or state of health beyond what is now 
used, so we do not anticipate requiring any additional measures.

                               __________
       Prepared Statement of the Allied Pilots Association (APA)

    Mr. Chairman and Members of the Committee. I am John Darrah, 
President of the Allied Pilots Association (APA), which represents the 
11,000 pilots who fly for American Airlines. On behalf of the Allied 
Pilots Association, I thank you for the opportunity to submit written 
testimony regarding S. 361, a bill that would raise the mandatory 
retirement age for commercial airline pilots from the current age 60.
    Safety must always be the government's and the airline industry's 
first concern. For that reason, the Allied Pilots Association opposes 
not only S. 361 but any proposal to allow U.S. commercial airline 
pilots to continue flying past the current mandatory retirement age.
    The Age 60 Rule has remained unchanged for 42 years. The reason for 
that is simple. It works. Before Congress changes the status quo, 
please consider some of the critical issues that surround the Age 60 
Rule.
    A higher retirement age will not make commercial air travel safer. 
The argument that the rule change might not threaten passenger safety 
is not reason enough to take the risk. We have no means of determining 
how long past age 59 a pilot can continue to fly effectively. The FAA 
established the Rule in 1959 based on a study that indicated pilots 
approaching 60 become more susceptible to heart attacks, strokes and 
other physical and mental effects of aging. Although Americans are 
living longer and healthier lives today than they did in 1959, and 
medical testing has advanced considerably, medical technology still 
cannot determine with certainty which pilots should fly and which 
should retire.
    Is the Rule unfair to older pilots? We don't think so. Both the 
U.S. Court of Appeals and the U.S. Supreme Court have denied challenges 
to the Rule, finding that mandatory retirement is legitimate when age 
is a bona fide occupational qualification.
    Other professions responsible for guarding the public's safety, 
such as police, firefighters and air traffic controllers, impose a 
mandatory retirement age. For the controllers, the age is 56. It is 
simply good judgment for individuals in safety-sensitive professions to 
conclude their careers before the natural process of aging becomes a 
problem.
    A vast majority of commercial airline pilots back the existing 
policy. More than 80 percent of our members supported the Age 60 Rule 
in a survey we conducted a few years ago. The Air Line Pilots 
Association (ALPA) also has endorsed the existing Rule.
    The notion currently being advocated by some is that, as we get 
older, our increased experience compensates for known degradation of 
physical and cognitive functions. In other words, their premise is that 
``the older a pilot becomes, the safer he or she is.'' If this premise 
is valid, both the flying public and the National Transportation Safety 
Board should be clamoring for older and older airline pilots.
    It is appropriate for the aviation industry to develop measures to 
increase its pilot hiring pool, such as increasing the availability for 
pilot-training scholarships. However, we do not believe that part of 
the solution is to alter the Age 60 Rule. The Age 60 Rule represents 
the FAA's best determination of the point when a general decline in 
health-related functions and overall cognitive and performance 
capabilities may begin and reach a level where a pilot's judgment and 
physical ability could compromise safety.
    The Allied Pilots Association reiterates its belief that any 
discussion of the Age 60 Rule should center on safety, not economics. 
We strongly believe that any decision to alter the current Rule must be 
based solely on solid research and conclusive findings from respected 
neutral scientific bodies.
    The reality of airline flying today is far different from the 
public perception. The most senior pilots typically fly the largest 
aircraft, and those aircraft are used to fly long-haul domestic and 
international routes. Most of these flights require all-night flights, 
either one or both ways, and these senior pilots fly as many as 8 to 10 
all-night flights per month. The resulting circadian rhythm disruption 
is severe, and the associated cumulative physical effects are both 
unpleasant and exhausting.
    NASA has conducted research proving that the effects of circadian 
upsets, sleep disruption and fatigue become increasingly acute with 
advancing age. NASA has reported that the negative effects are 
increasingly severe after the age of 50. These facts have been common 
knowledge to airline pilots for decades.
    Our position is firm. The Age 60 Rule is a well-established safety 
regulation that has been substantiated by medical science, has been 
reaffirmed repeatedly by the FAA and has worked effectively for more 
than 40 years.
    The justification for the Rule is not now and never has been to 
enhance the careers of pilots who want to move up the seniority list 
faster, and it should not be changed for the sake of those who want to 
continue flying longer. Nor should it be used as a regulator of the 
pilot-supply pool for regional economic purposes. The Age 60 Rule is a 
safety regulation and should not be changed or repealed unless there is 
sufficient evidence to prove conclusively that such action would not 
have a negative effect on safety. That case has never been made.
    Since the Rule was established, commercial airlines in this country 
haven't experienced a single age-related accident. Congress should not 
eliminate a regulation that has served us well. For safety's sake, we 
should keep the retirement age for pilots at 60.

                               __________
     Prepared Statement of the Airline Professionals Association, 
                          Teamsters Local 1224

    Mr. Chairman and Committee Members, thank you for taking the time 
to review the pilot retirement age issue. I am Captain Richard Lawhorn, 
the Legislative Affairs Chairman for Airline Professionals Association 
Teamsters Local 1224. My Local represents some 900 pilots who fly for 
Airborne Express.
    While the Local 1224 Executive Board has not taken a position 
concerning this proposed change, there are numerous related issues that 
you must consider when debating legislation that would raise the 
mandatory retirement age for pilots from 60 to 65.
    When one decides to become a professional pilot, it is not only a 
career choice but also a lifestyle that affects the pilot and his or 
her family. During the average pilot's career, he will spend 
approximately half of his life at work. A normal airline schedule will 
be comprised of a minimum of 15 days per month working as few as eight 
or as many as 16 hours per day. For example, some domestic schedules 
approach 8 hours of flight time, while internationals approach 12 hours 
of time in the air. Some flight crewmembers can work this grueling 
schedule 6 days in a row.
    Obviously working in this rarefied environment places additional 
stress on the body from a physiological standpoint. An article in the 
Tuesday, March 6, 2001 edition of USA Today, explores the lack of 
oxygen in the aircraft cabin at cruise altitudes (see attached 
article). Low oxygen levels have been directly linked to decreasing the 
body's performance levels. This weekend, when you fly home, it won't be 
such a mystery as to why so many passengers are sleeping.
    Moreover, pilots work in conditions similar to those of working at 
a desk on top of a 7,000- or 8,000-foot mountain everyday. Consider too 
the level of radiation pilots are exposed to during each work day and 
those who work on the backside of the clock. These conditions, over a 
period of several years, will take their cumulative toll on a pilot's 
body.
    Airline pilots are the most closely regulated work force in the 
world: physical examinations and continued aircraft training are 
required every 6 months. It is well documented that as humans age, our 
reflexes begin to slow--this is no different for pilots. However, a 
pilot's level of experience tends to offset this factor. Nevertheless, 
we must not forget the Age 60 Rule was originally passed to ensure the 
continued safety of the aviation industry.
    As pilots approach age 60, for some, it becomes much more 
challenging to maintain excellent health and top-notch flight 
abilities. However, others may be able to pass required exams and 
continue flying many years after reaching age 60. Both the Federal 
Aviation Administration and NASA have conducted studies into aging, and 
depending on your view of this issue, it is not difficult to find a 
study in support of both sides of this issue.
    Beyond health considerations, a move to raise the pilot retirement 
age also has serious implications for pension benefits. Should Congress 
opt to change the mandatory retirement age, a pilot who has pursued a 
career since his or her mid-20s, should be able to retire at the 
current retirement age of 60 without incurring any financial penalty. 
This is especially true if the pilot's health should dictate retirement 
as the best option for both the pilot and his or her employer.
    The Internal Revenue Code contains an important provision that 
affects pilot pensions, and the benefits provided by this section 
should continue to be available to pilots, regardless of a change in 
the mandatory retirement age. Under Section 415 of the Internal Revenue 
Code, the maximum amount a worker can receive from a defined benefit 
pension plan is actuarially reduced for retirement before Social 
Security retirement age. Commercial airline pilots, however, are 
covered by a special exception under Section 415(b)(9). In recognition 
of the special circumstances under which pilots work, Congress wisely 
mitigated the actuarial reduction in the limits that would otherwise 
have been imposed on pilot pension for retirement prior to Social 
Security retirement age. If Congress is to consider increasing the 
mandatory retirement age, then the protections currently provided by 
Section 415(b)(9) must be preserved in order to ensure that pilots are 
not penalized for ``early retirement.'' While Local 1224 maintains a 
neutral standpoint on this issue, some pilot groups ardently support 
the opportunity to secure 5 additional years of compensation and 
pension credits. For example, carriers thought of as the backbone of 
American aviation, such as the now defunct Pan Am and Eastern airlines, 
left pilots who were long-term employees with little or no pension 
plans or financial security. Obviously, these pilots, while not a 
majority, have a particularly keen interest in these hearings and 
special concerns about preservation of the pension benefit level 
currently promised to them by their current pension plan and by current 
Federal law.
    While experience has shown that pilots are capable of maintaining 
their health and flight skills to the age of 60, the what-ifs of 60 and 
above are unknown and could have implications for flight safety. If 
Senate Bill 361 is, in fact enacted, retirement before age 65 must be 
an option that is available without pilots having to accept a financial 
penalty that was not a factor when they were planning and structuring 
their finances for retirement.
    Once again, Mr. Chairman thank you for the opportunity to submit 
the views of Local 1224 on this issue. We look forward to working with 
you as this legislation proceeds through Congress.
                                 ______
                                 

                    [From USA Today, March 6, 2001]

Do Passengers Get Enough Oxygen? Experts Examine a Threat That Affects 
                           Everyone Who Flies

                           (By Robert Davis)

     As the number of reported heart attacks, faintings and other 
medical emergencies aboard airlines continues to soar, the government 
is considering changing the way cabins are pressurized to provide more 
oxygen to passengers.
    The Federal Aviation Administration and scientists across the 
industry are reevaluating a standard that was set decades ago and based 
on studies of healthy servicemen in altitude chambers. The modern 
airline cabin looks very different, as aging baby boomers--many with 
health problems that can worsen suddenly and sometimes fatally--fly 
farther and longer than ever before.
    There is plenty of oxygen in the air inside airline cabins. But 
because the barometric pressure is lower--equivalent to standing on an 
8,000-foot mountain--not as much oxygen reaches the bloodstream to be 
carried to vital organs. Much of the focus on cabin air quality has 
been on the spread of viruses such as the common cold. But a new focus 
is emerging as scientists and doctors learn more about the threat that 
affects every airline passenger: hypoxia, the term for too little 
oxygen.
    This lack of oxygen usually causes little more than a headache and 
a feeling of fatigue in the average healthy flier. But passengers who 
have an underlying breathing, heart or circulatory problem--even one 
they don't yet know exists--can suffer serious medical emergencies when 
the oxygen level drops. Heart attacks are among the more serious 
problems that hypoxia could cause during airline flights.
    ``People are traveling to all ends of the earth and very little 
attention has been given to the impact and the insult on the human body 
during flight,'' says Marian Sides, a vice president of the Aerospace 
Medical Association. As a military researcher, she has studied the drop 
in oxygen levels at cruising altitudes.
    ``Ten to 15 years ago, we were concerned about smoking on airlines. 
Now this is the next level of concern,'' Sides says. ``Going on an 
aircraft does in fact compromise one's rate of oxygenation. The oxygen 
deficits are significant.'' While aviation experts reconsider--
sometimes skeptically--the cabin pressure standards, the National 
Academy of Sciences has appointed a panel of medical experts to 
determine the exact health risks of breathing cabin air. The effort, 
which is expected to be completed this year, comes as the number of 
reported medical emergencies aboard airliners is increasing.
    The FAA does not track the number of medical emergencies in the 
air, but MedAire, a Phoenix-based company that connects doctors with 
flight crews and ill passengers in flight, says medical emergencies are 
at an all-time high. In the mid-1980s, there were about 10 deaths each 
year on U.S. airliners.
    Now, industry officials estimate, as many as 100 people a year die 
because of medical problems during flights. MedAire hears about many of 
them: The company helps 35 airlines around the world and took 8,500 
medical calls last year.
    Aviation experts say in-depth studies would be needed to determine 
if the hypoxia at cruise altitude is to blame for the medical 
emergencies. But doctors at MedAire are suspicious. They say that 21 
percent of the calls they get are for passengers who pass out. Heart 
and breathing problems accounted for 12 percent and 11 percent, 
respectively. ``The issue of hypoxia is really significant for people 
with heart or lung disease, and no one knows it,'' says Brent Blue, a 
doctor and pilot who sells oxygen-measuring devices.

                            A DROP IN OXYGEN

    Here's why the body begins losing oxygen within minutes at cruising 
altitudes: As the plane soars, extremely hot air is drawn from the 
jet's engines, cooled and piped into the cabin. This constant flow of 
very dry air keeps a life-sustaining pressure in the cabin. But because 
the plane is designed to be as lightweight as possible, it can only 
withstand so much pressure. The thin aluminum shell of most jets 
expands like a balloon--as much as an inch--as the pressure inside 
increases and the outside pressure decreases at high altitudes.
    There is just as much oxygen in the cabin air at cruising altitude 
as on the ground, but because the atmospheric pressure is lower than at 
sea level, it is more difficult for the body to absorb the vital gas. 
With less pressure, fewer oxygen molecules cross the membranes in the 
lungs and reach the bloodstream.
    The result is a significant drop in the amount of oxygen in the 
blood--anywhere from 5 percent to 20 percent depending on the person, 
the plane and the length of the flight.
    With less oxygen in the bloodstream, the vital organs soon get 
deprived.
    The reduced oxygen supply to the brain is why some suffer headaches 
while in flight, one of the symptoms of hypoxia. When oxygen levels 
fall in the brain, the heart tries to compensate by beating harder and 
faster. Another symptom of hypoxia is fatigue.
    But doctors say the body's efforts to compensate can hurt people 
who fly with underlying medical conditions.
    ``Many papers report that the rate of in-flight medical emergencies 
is higher in cases with cardiovascular or cerebrovascular disorders,'' 
says Makoto Matsumura, of the Heart Institute at Saitama Medical School 
in Japan, who presented new details about the issue at last year's 
American Heart Association meeting. ``The hypoxia is related to the 
cabin environment. Therefore, it is important to draw attention to the 
aged and the patients with hypertension who potentially have a vascular 
disorder.'' Joan Sullivan Garrett, who runs MedAire, suspects that many 
of their medical emergencies are from passengers whose bodies are 
already weakened by diseases struggling to compensate for a shortage of 
oxygen.
    ``In a lot of these, the impetus is some sort of hypoxia,'' she 
says. ``When you step back and look at the average traveler, they are 
older and many have health problems before they ever step on a plane.''

                        TIME FOR A NEW STANDARD?

    Because the pressure in an airliner is easy to control, the 
industry is considering whether it should change the minimum pressure 
standards to try to prevent medical emergencies.
    An FAA rule requires pilots to keep jets pressurized to the level 
that is equivalent to an 8,000-foot mountain or lower. The rule, FAA 
officials say, is based on altitude chamber tests performed on healthy 
airmen decades ago.
    But the FAA says it does not monitor planes to see how they are 
pressurized while carrying passengers.
    One study performed by doctors in the 1980s found pressurization 
differences across the fleet.
    Each plane must meet the same strict standard to go into service. 
But once it is in use, everyday wear and tear can change the way the 
air flows in the cabin. Even small dents in the floor by the door, 
where heavy carts are dragged aboard, can make it more difficult to 
maintain cabin pressure.
    The more air the pilot takes from the engines to pressurize the 
cabin, however, the more fuel it takes to fly. The air also reduces the 
engine's thrust.
    ``These planes are flying up to 42,000 feet,'' says Stanley Mohler 
of Wright State University School of Medicine in Dayton, Ohio, who has 
studied the health effects of flight. ``When you get up to that area, 
it takes a lot of fuel to keep the cabin pressurized.'' As engineers 
consider whether the atmosphere inside the cabin could be required to 
be kept at pressurization equal to 6,000 feet, for instance, to 
increase passenger oxygenation, the airlines want proof that a change 
is needed.
    ``The airlines are going to resist,'' Mohler says. ``If you lower 
the cabin pressure on many of their airline flights, you're going to 
burn a lot more fuel.'' The aviation industry says that while it is 
worth studying, there is not yet any proof that changing the pressure 
will help passengers.
    ``You have to have some evidence that it's going to be salutary to 
the passengers,'' says Russell Rayman of the Aerospace Medical 
Association.
    He calls the FAA's 8,000-foot rule ``rather arbitrary'' and ``a 
best guess,'' but he says there is no proof that lowering it would 
help. ``There is no evidence and I think it will be very difficult to 
get it.'' Some people in the industry balk at the idea of changing the 
rules to meet the needs of people with health problems.
    ``I feel sorry for somebody who has vascular problems or breathing 
problems, but maybe they shouldn't be flying,'' says Dave Heekin, an 
airline captain. ``If you are going to make it comfortable for the most 
susceptible passengers you're going to have an airplane that you're not 
going to be able to fly.
    ``I have compassion for them but you can't do everything to the 
lowest common denominator.''

                           WHO'S RESPONSIBLE?

    Heekin hopes his passengers begin to take more responsibility for 
their health. ``I'm tired of the flight attendants telling me we have a 
passenger with breathing problems and we may have to land in Omaha,'' 
Heekin says.
    Garrett of MedAire says the responsibility shouldn't rest with the 
airlines, which can't know their passengers' medical baggage.
    ``I feel sorry for the airlines,'' she says. ``There is no way the 
airlines can possibly prepare to deal with the kinds of problems and 
the critical nature of the problems travelers have today. How can they 
be responsible? They don't know that my Aunt Agnes smokes.'' Doctors 
who have studied the problem agree.
    They say two common factors that cause hypoxia are often launched 
on the ground as passengers prepare to board the plane.
    When people drink too much alcohol, the body does not use oxygen as 
efficiently, leading to what is known as histotoxic hypoxia. And 
cigarette smoke damages the fragile membranes in the lung where oxygen 
is exchanged.
    People who have smoked for years and who smoke several cigarettes 
before a flight can suffer what is known as hypemic hypoxia before they 
board the plane.
    Flight attendants say they keep an eye on the ``runners'' who drink 
and smoke in the airport bar until the last moments of boarding, then 
run to catch the plane before it leaves the gate.
    ``When they get on board they decompensate,'' says Garrett, who was 
a flight nurse before starting MedAire. ``They get chest pain and in 
some cases they will have a cardiac arrest.'' Blue, a Jackson Hole, 
Wyo., physician and pilot, says alcohol is a major reason for so many 
medical emergencies in flight.
    ``Alcohol should not be served on an airplane,'' he says. ``I can't 
think of anything worse you could do on an airplane than drink.'' Blue 
has a Website--Aeromedix.com--with information about hypoxia in flight. 
And he sells fingertip devices that measure oxygen level in the blood. 
He began selling to pilots so they could monitor themselves while 
flying their private planes. But he says thousands of airline travelers 
have bought the devices, which cost $380, in recent years.
    If a healthy passenger suffers any ill effects from hypoxia, it may 
be anything from a headache to tingling lips to weakness or other 
annoyances. ``But if they have a bad cold or upper respiratory 
infection, walking pneumonia, coronary artery disease, emphysema, a lot 
of those things, they'll notice it,'' Blue says. ``Especially with 
coronary artery disease they will be at significant risk.'' He says the 
airlines should not be ``let off the hook'' because they do not give 
any warning to their passengers today about hypoxia or cabin 
pressurization.
    ``They can say this flight will be 8,000 feet or 7,500 feet,'' he 
says. ``Then you could make a choice.''
    Rayman, a physician on the National Academy of Sciences committee 
on cabin air quality, offers this perspective: ``People with coronary 
artery disease are flying every day. The great majority reach their 
destination none the worse. Those with advanced or significant coronary 
artery disease are at increased risk and should accordingly consult 
their physicians before planning to travel by air.''

                               __________
        Prepared Statement of the FedEx Pilots Association (FPA)

    Mr. Chairman and Members of the Committee, thank you the 
opportunity to submit written testimony. I am David Webb, President of 
the FedEx Pilots Association (FPA), which represents the 3,800 pilots 
who fly for Federal Express Corporation. The FPA joins the vast 
majority of pilots in opposition of S. 361, which would raise the 
mandatory retirement age for commercial airline pilots from the current 
age 60.
    The Age 60 Rule is one of the FAA's most thoroughly studied 
regulations. For more than 40 years, it not only has worked well, but 
has weathered numerous challenges.
    A safety regulation should not be changed for economic reasons. S. 
361 would not enhance safety. Further, proponents of raising the age 
have never proved that raising the retirement age will not be 
detrimental to aviation safety.
    There is no doubt that people are living longer and healthier lives 
then ever before. Yet medical science has not found a way to predict 
which pilots' performance will decline to unsatisfactory levels.
    Why experiment with safety and put people at risk?
    It is imperative that Congress weigh all of the risks faced by 
commercial airline pilots in an already stressful working environment 
and the potential for a negative impact on aviation safety when 
considering any change in the pilot retirement age.
    U.S. cargo jets carry millions of pounds of hazardous cargo each 
day, taking off and landing at airports in highly populated areas and 
in proximity to passenger aircraft. In addition, our pilots fly the 
most demanding route structure in the world. It is common for us to fly 
into non-radar environments with foreign controllers. Fatigue is also a 
risk for commercial pilots. There is a strong body of evidence that 
people are at their greatest risk of fatigue during circadian lows, 
from 2 a.m. to 6 a.m. Cargo pilots are especially vulnerable because we 
primarily fly at night, often on lengthy routes that cross multiple 
time zones, during those hours when the human body is most susceptible 
to fatigue.
    Because of seniority, it is generally our most senior pilots who 
fly the most demanding of these routes. Raising the pilot retirement 
age will only compound the risks faced by FPA's pilots. It would keep 
pilots in the cockpit beyond the time in their lives when there is 
likely to be a degradation of their physical capabilities and flying 
skills.
    Federal court decisions have made it clear that the Age 60 Rule 
does not constitute discrimination. The FAA has not only the authority, 
but the responsibility to create regulations to protect the safety of 
the flying public. A mandatory retirement age for pilots is not without 
precedent. In the interest of public safety, air traffic controllers, 
police officers and firefighters all must retire well before reaching 
the age of 60.
    S. 361 actually could lessen aviation safety and is contrary to the 
public interest. The FedEx Pilots Association, therefore, is strongly 
opposed to its enactment.

                               __________
   Prepared Statement of the National Air Transportation Association 
                                 (NATA)

                              INTRODUCTION

    NATA represents nearly 2,000 aviation businesses that own, operate 
and service aircraft. These companies provide for the needs of the 
traveling public by offering services and products to aircraft 
operators and others such as fuel sales, aircraft maintenance, aircraft 
parts sales, airline servicing, aircraft storage, flight training, Part 
135 non-scheduled air charter, aircraft rental, and scheduled commuter 
operations in smaller aircraft. NATA members are the vital link in the 
aviation industry that provides services to the general public, 
airlines, general aviation, and the military.
    Almost 3,000 businesses are certificated by the Federal Aviation 
Administration (FAA) as Part 135 on-demand air charter air carriers. 
The majority of companies in the industry are small businesses 
providing a vital transportation link for medical services, important 
cargo needed to promote commerce, and personal travel supporting the 
growth of the economy. These companies use smaller aircraft to meet the 
customized needs of the traveling public for greater flexibility in 
scheduling and access to almost every airport in the country. In 
passenger service, flights are planned according to the customer's 
schedule, not the operator's. Likewise, air charter serves a vital role 
for commerce across the country and the world, providing short notice 
delivery of parts, important documents, supplies and other valuable 
cargo. On-demand air charter saves lives as air ambulance operators are 
ready at a moment's notice to fly to an accident scene or remote area 
to transport those in need to hospitals that can provide necessary 
care. In addition, on-demand air charter flights transport vital organs 
for those requiring transplants. All of these services are contingent 
upon the ability to respond quickly to the needs of customers.

               NEED FOR RAISING MANDATORY RETIREMENT AGE

    The Association supports the legislation introduced by Senator 
Frank Murkowski (R-AK), S. 361, as a means to modernize an outdated 
regulation and potentially slow the attrition rate for airline pilots 
that affects the hiring of many NATA member employees, while at the 
same time ensuring safety. NATA does not believe that any safety 
concerns exist by extending the age from 60 to 65 provided pilots 
maintain good health.

                          NO EFFECT ON SAFETY

    This legislation also recognizes the lack of safety relevance with 
the current mandatory age 60 retirement age for airline pilots. NATA 
questions the validity of this 40-year-old rule that simply does not 
apply to modern day aviation. Since the Age 60 Rule was instituted in 
the 1960s, the FAA has conducted several studies on the correlation 
between age and accident rates with results identifying no safety 
risks. The Association supports Senator Murkowski's claim that with 
modern medical science ``there is no reason why we can't continue to 
utilize the experience and sound judgment of older pilots, provided 
they are in good health.'' While the pilot unions continue to advertise 
that extending the age of pilots from 60 to 65 will jeopardize safety 
and be done for economic gain, NATA believes quite the contrary. All 
Part 121 certified pilots are subject to first class medical testing to 
ensure safety. Several organizations and noted medical specialists have 
agreed that there is simply no scientific basis indicating that the 
move of age from 60 to 65 will affect safety, including the Civil 
Aviation Medical Association's recent assessment that pilots should not 
be forced to retired based solely on age. For the unions, safety is not 
the issue; pilot advancement, including abridged paths to seniority and 
increased pay, is.

             RAISING RETIREMENT AGE GOOD FOR TRANSPORTATION

    NATA's members have seen the historical turnover rates for on-
demand air charter operators to be about 5 to 10 percent annually. Each 
company may experience different rates based on variables such as 
equipment operated (piston, turbo-prop or jet engine), pay and 
benefits, and hours of operation. During the last 2 years, these rates 
have climbed to 50 percent or higher. One member in particular suffered 
a 70 percent turnover in their pilots last year. Whatever the actual 
rate, most of the Association's members have reported a doubling in 
their pilot turnover.
    As Members of the Committee may know, there is a typical career 
path in the aviation industry for developing and training pilots. While 
this may not hold true for all, it certainly is the path followed by 
many pilots. An individual will begin by taking flight lessons and, 
after obtaining a pilot's license, build up enough hours to become a 
Certified Flight Instructor (CFI). After working as a CFI and 
accumulating flight time, the pilot may then seek a position with a 
regional airline or begin flying for an on-demand air charter operator. 
Subsequently, based on the pilot's skill and total hours, a position 
with the major airlines may then become available to them. Of course, 
not all pilots want to work for a major airline, but for most this is 
the ultimate goal. It is this ``pilot supply line'' that has been and 
is expected to continue to be at an all time low.
    The uncertainty over whether a company's pilots employed today will 
be there tomorrow is stifling many air charter operators from expanding 
their services to meet the growing demand for air transportation. This 
disproportionately impacts on the less populated areas of the country 
that receive little airline service.
    The shortage of pilots becomes critical when you consider the need 
for medical access provided by emergency medical services that may be 
the only link for smaller communities to medical specialists. The 
shortage threatens the expansion of medical services to smaller and 
rural communities. For example, one of our members regularly flies 
doctors to areas outside of Denver, Colorado, as the means for smaller 
communities in Colorado, Kansas and Wyoming to get access to specialty 
health care.
    Commerce and the economic viability of communities are likewise 
dependent upon access to air transportation. If qualified pilots are 
not available for air charter operators, this link is severed. Finally, 
the high value cargo, mail and express package services provided to 
communities across the country by companies like ours are directly 
affected by the ability to have pilots able to safely operate our 
aircraft.

                               CONCLUSION

    While the aviation industry attempts to bring the pilot supply and 
the demand for their services into balance, Congress should consider 
whether the current requirement for airline pilots to retire at age 60 
is still necessary. As you can imagine, allowing pilots to continue 
working for an airline past 60 would decrease the demand for new 
pilots. Likewise, it would provide for these pilots with thousands of 
hours of accumulated flight time experience to continue serving the 
traveling public.
  

</pre></body></html>
